<html>
<title> - NUCLEAR AGREEMENT WITH IRAN: CAN'T TRUST, CAN WE VERIFY?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                     NUCLEAR AGREEMENT WITH IRAN: 
                      CAN'T TRUST, CAN WE VERIFY?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

                           Serial No. 114-38

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
        
                     U.S. GOVERNMENT PUBLISHING OFFICE
94-306PDF                WASHINGTON : 2015                     
        
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Charles Duelfer, chairman, Omnis, Inc. (former Chairman, UN 
  Special Commission on Iraq [UNSCOM])...........................     7
The Honorable Stephen G. Rademaker, national security advisor, 
  Bipartisan Policy Center (former Assistant Secretary, Bureau of 
  Arms Control & Bureau of International Security and 
  Nonproliferation, U.S. Department of State)....................    17
Mr. David Albright, founder and president, Institute for Science 
  and International Security.....................................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Charles Duelfer: Prepared statement..........................     9
The Honorable Stephen G. Rademaker: Prepared statement...........    21
Mr. David Albright: Prepared statement...........................    30

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
The Honorable Darrell E. Issa, a Representative in Congress from 
  the State of California:
  Letter from Members of Congress to the Honorable James R. 
    Clapper, Director of National Intelligence, Office of the 
    Director of National Intelligence, dated March 19, 2015......    93
  Response from the Honorable James R. Clapper to letter from 
    Members of Congress received April 9, 2015...................    96
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    99


                     NUCLEAR AGREEMENT WITH IRAN: 
                      CAN'T TRUST, CAN WE VERIFY?

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order today on 
the nuclear agreement with Iran and we continue our 
consideration of the possible final nuclear accord.
    Earlier this month, the administration and our negotiating 
partners announced the ``framework'' of a final agreement that 
has to be hammered out by the end of June. Now, all of the 
essential elements of this inspections regime still need to be 
negotiated.
    But I will mention that it was this committee that passed 
sanctions originally in the Senate which brought Iran to the 
table and it was this committee last session that passed 
unanimously legislation authored by Mr. Engel and myself that 
would in fact have given the clerics in Iran a choice between 
economic collapse or real compromise on their nuclear program. 
That bill passed the House floor 400 to 20 but that bill was 
held in the Senate.
    So today, the ink isn't even dry on this month's 
announcement but we saw 2 weeks ago the chants led by the 
Supreme Leader in Iran, ``Yes,'' he said, ``Yes, death to 
America'' and then later asserted that Iran would not allow 
international inspectors access to Iran's military facilities.
    This weekend, the deputy head of the Iranian Revolutionary 
Guard Corps reiterated, ``They will not even be permitted to 
inspect the most normal military site in their dreams.''
    The administration has shrugged off such comments as 
Iranian domestic spin but the issue of inspections and 
verification will be central to how Congress judges any final 
agreement.
    Will inspectors have quick, unimpeded, go-anywhere, anytime 
access? Who can these inspectors interview? What documents can 
they review? Can they take environmental samples? Does the IAEA 
have the qualified manpower and resources to take this on? Can 
the framework's limited centrifuge research and development 
restriction really be verified?
    Now, Iran's long history of clandestine activity and 
intransigence prevents the U.S. from holding any trust 
whatsoever in the clerics who run Iran. Indeed, deception has 
been a cornerstone of their nuclear program since its 
inception. So when it comes to negotiating and inspections 
regime over the next 2 months, the U.S. must gain ground, not 
retreat.
    A key piece of verification includes Iran coming clean on 
its past bomb work. We recall that the IAEA asked those 12 
questions about their testing. They got an answer back up half 
of the first question and none of the others were responded to. 
That still has not happened despite long-overdue commitments on 
the part of Iran to international inspectors.
    The IAEA remains concerned about signs of Iran's military-
related activities; including designing a nuclear payload for a 
missile--a nuclear weapon for an ICBM missile. Iran hasn't even 
begun to address these concerns, and last fall 350 members 
wrote to the secretary of state expressing deep concerns about 
this lack of cooperation. Yet, the framework agreement is vague 
on this critical verification step.
    Intrusive inspections are even more critical when you 
consider a recent Department of Defense study. It points out 
that the U.S. capabilities to locate undeclared nuclear 
facilities or convert nuclear programs are ``either,'' in the 
words of the Department of Defense study, ``inadequate, or more 
often, do not exist.''
    And, critically, that study also reminds us that, 
``verification is principally the political judgment,'' in the 
words of the study, ``to which monitoring and other means 
contribute.''
    The IAEA and its inspectors will play an essential role in 
monitoring Iran, but it will ultimately be up to the 
administration and its negotiating partners, which includes 
Russia and China--likely acting through the U.N. Security 
Council or another international body--to decide whether Iran 
is complying with its commitments.
    And this is another weak link. If Iran is caught cheating, 
will this or the next administration be prepared to call them 
out? I am not confident. Why? Because during the interim 
negotiations when Iran was caught testing an advanced 
supersonic centrifuge it faced no consequences. As one witness 
will testify, international inspectors can be no tougher than 
the countries that back them.
    The history of arms-control inspections is that they are 
easy for political leaders to tout as a solution, but are 
difficult to fully implement. What looks good on the chalkboard 
often fails in the real world.
    Even if verified, as one witness will note, this agreement 
still puts Iran on the path to being an accepted nuclear 
weapons state. And beginning in 10 years, the administration's 
lauded 1-year breakout period begins to fall away and Iran will 
be able to enrich on an industrial scale. At the same time, 
Iran's Revolutionary Guard is advancing its ballistic missile 
capability under orders from the Supreme Leader to ``mass 
produce'' and he has been publicly quite vocal about the need 
to ``mass produce'' ICBMs.
    In announcing this framework agreement with Iran, the 
President boldly declared that ``If Iran cheats the world will 
know.'' Today, we will hear from former top weapons inspectors 
and nonproliferation experts to learn what it would take for 
that assertion to be true and to be credible.
    And I will now turn to the ranking member for any opening 
remarks he may have.
    Mr. Engel. Mr. Chairman, thank you for calling this hearing 
and thank you for your leadership of this committee. Let me 
also thank our witnesses for their insight and expertise.
    As Congress works to address the potential deal with Iran, 
it is important that we seek input from all corners of the 
policy arena. So I look forward to a good discussion.
    Before we hear the testimony of our witnesses, I would like 
to outline some of my reactions to the framework that has been 
announced and to outline some of my lingering questions and 
concerns.
    The bottom line goal of these negotiations was to extend to 
1 year the so-called breakout period--the time needed for Iran 
to acquire enough fissile material to build a bomb and to close 
all pathways for Iran to get the bomb.
    As I see it, if Iran adheres to the limitations--and by the 
way, we all know that is a big if--the announced framework 
takes some important steps toward that goal. The plan would cut 
by two-thirds the number of centrifuges Iran is allowed to 
operate and those would only be able to employ first generation 
technology.
    Under the framework, the Iraq reactor would be overhauled, 
ensuring that it could never be used to produce plutonium. A 
strict inspection regime focused on Iran's uranium mines and 
mills will allow us to keep a close eye on Iran's supply of 
nuclear fuel from the mines to the centrifuges and beyond for 
the next quarter century.
    That way, if Iran wanted to build a bomb covertly they 
would not only have to build a new covert facility, they would 
also need to find a new secret source of uranium. And the 
inspection and verification provisions of the NPT and its 
additional protocol remain in effect for perpetuity.
    However, is the deal perfect? Obviously not. I still have a 
lot of questions and concerns. First of all, I always said that 
at the start of negotiations with Iran we should have demanded 
that they stop enriching while we are talking. I don't think 
that was a big ask, considering the Security Council of the 
United Nations has voted multiple times to tell Iran to stop 
enriching.
    But we didn't do it. It bothers me--continues to bother me 
that while we are talking with Iran about their nuclear program 
at the same time Iran continues to be such a bad player on the 
world scene.
    We hear, just reading the papers today and this week, that 
the United States is contemplating intercepting Iranian 
missiles if they head to Yemen. To me, there is just something 
wrong with our negotiating with them on the nuclear weapons and 
they continue to do all these things.
    They continue not only to not release Americans from their 
jails but the bureau chief of the Washington Post is indicted 
and they are talking about bringing him up for trial and 
talking about the charges. It just irks me to no end.
    So the administration maintains that sanctions relief 
depends on Iran meeting its commitments under the comprehensive 
agreement. Iran is looking for sanctions relief on day one.
    Again, the Iranian rhetoric in this venture is not helpful. 
We are told that sanctions will not be removed just upon the 
signing of the agreement and yet we hear Iran's leadership 
continuing to insist that it will.
    Maybe it is just spin. Maybe it is just hype. But it 
certainly seems to me that the more you spin, the more times 
you say it, the more times there is hype, it becomes more 
difficult to climb down from that position.
    That really bothers me. So when will Iran indeed have 
access to $130 billion in frozen assets? What will they do with 
those assets? What will they fund? Whom will they support? 
These are all things that are, obviously, important to us.
    Eventually, U.N. Security Council resolutions that impose 
nuclear-related sanctions on Iran will be lifted. But these 
same resolutions also prohibit the transfer of ballistic 
missile technology and conventional arms to Iran.
    If those restrictions disappear, then we could see even 
more Iranian-inspired volatility in the region and pressure on 
neighbors. We need clarity on these sanctions issues.
    In addition, the IAEA has posed a series of questions, as 
the chairman mentioned, on Iran's weaponization efforts, the 
so-called potential military dimension, or PMD.
    What happened at the Parchin military base, for example? 
How far along is Iran in the weaponization process? If Iran 
were to enrich enough fissile material to achieve a breakout 
how long would it then take them to build a warhead and made it 
to missile?
    We must have answers to these questions. The proposed 
agreement would not allow Iran to use its advanced centrifuges 
to produce nuclear fuel but it would permit them to continue 
limited research and development on these advanced machines.
    What impact would this have on Iran's breakout time after 
the expiration of the deal? And finally, we don't know yet how 
disputes about potential Iranian violations will be resolved.
    What will happen if the U.S. determines that Iran is 
engaged in some activity that violates the agreement but Russia 
and China disagree? What will be the process for reimposing 
U.N. sanctions if Iran is caught cheating?
    If these questions are not resolved in a way that satisfies 
these concerns, concerns that Congress has outlined repeatedly, 
then there are likely to be major, perhaps fatal, flaws in the 
final deal.
    And that is why Congress must play a role in this process. 
I have said this from day one, again and again publicly, and 
last week's markup in the Senate Foreign Relations Committee 
signaled an important shift in that direction.
    I look forward to reviewing what the full Senate passes on 
the floor and I hope we can expeditiously consider the Corker-
Cardin compromise.
    And let me close by saying that even though Iran's nuclear 
program poses a major threat, it is only one part of a much 
larger problem. I said that before.
    I am deeply concerned about Iran's ballistic missile 
program and its destabilizing behavior in the region. Yet, 
these issues are outside of the scope of the negotiations. In 
my mind, it is difficult to separate the nuclear issue from 
Iran's support for Hezbollah--the terrorists of Hezbollah, 
Hamas, President Assad, the Houthis in Yemen or the American 
political prisoners in Iranian jails.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We are going to go 1 minute to Ileana Ros-Lehtinen, chair 
of the Middle East Subcommittee, and then 1 minute to Mr. Ted 
Deutch, who is the ranking member of that subcommittee.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Today's hearing asks can we verify a nuclear agreement with 
Iran. We all know the answer to that--no, we cannot. Allowing 
access to Iran's nuclear sites declared or undeclared still 
ultimately resides with the regime, and defining and then 
enforcing any violations becomes a political matter, not a 
matter of fact.
    We have already seen Russia rush to do business with Iran 
and even lifting its suspension of S-300 surface-to-air 
missiles before, as you said, Mr. Chairman, before the ink 
could even dry on the four different versions of the framework 
agreement fact sheets.
    Putin has announced that Russia would begin trading assets 
like grain and construction equipment in exchange for Iranian 
oil and Iran has announced that China will help build five 
nuclear plants in Iran.
    So the notion that there will be the political will to snap 
back any sanctions is as illusory as the administration's 
belief that there will be adequate verification mechanisms in 
this deal--Disney's Fantasyland. Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    Mr. Deutch.
    Mr. Deutch. Thank you, Chairman Royce and Ranking Member 
Engel, for giving us this opportunity to really delve into the 
technical details of this deal.
    We have experts who know exactly what is needed for a 
verification regime to prevent the development of nuclear 
weapons and let me just say I would like to see a deal 
succeed--I have been clear about that--but only if it is a good 
deal.
    I want to see a deal that ensures Iran doesn't walk away in 
a few years with an industrial-sized nuclear infrastructure but 
perhaps most importantly I want a deal that ensures that we 
have access to any and every possible avenue for cheating, 
including access to military sites, and that we have adequate 
and swift measures in place to act if we suspect or find that 
Iran is doing so.
    I have already laid out my concerns with aspects of the 
framework presented just a few weeks ago and I hope today will 
offer us the chance to get some clarity on whether there are 
technical ways to overcome those issues.
    And though this is not the subject of this hearing, Mr. 
Chairman, I would say that for Iran to take a step to restore 
some credibility and some belief even in these negotiations, 
perhaps the best thing that they could do now will be to ensure 
that Amir Hekmati, Saeed Abedini, Jason Rezian and my 
constituent, Bob Levinson, return home to their families.
    I thank you and I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    Now we will go lastly, 1 minute, to Judge Ted Poe, chair of 
the Terrorism and Nonproliferation Subcommittee, and then 1 
minute to Mr. Bill Keating, who is the ranking member of the 
Terrorism and Nonproliferation Subcommittee.
    Mr. Poe. Mr. Chairman, Iran will lie until the truth will 
suit them better. We cannot trust Iran and I see no convincing 
evidence that we can verify them sticking to the final deal.
    Iran is still lying about its past nuclear activities. 
There is no reason to hope or believe Iran will start telling 
the truth and being honest once sanction relief comes. This 
hope is delusional.
    After the deal to make a deal, as I call it, Supreme Leader 
Khamenei said there was no deal and still screams ``Death to 
the United States.'' The White House said sanctions would be 
lifted gradually. President Rouhani publicly demanded that the 
sanctions be lifted on the first day of the agreement.
    The military has insisted that there will be no inspection 
of military facilities. The sides don't even agree on what this 
little deal may be. Iran could very well outsource its nuclear 
program to North Korea to avoid inspections altogether.
    We cannot trust this regime. Iran has proven time and again 
to be deceitful and a dangerous state sponsor of terror hell 
bent on lying and cheating its way to obtain nuclear weapons, 
developing ICBMs to deliver these nukes while being a threat to 
the world and their own people.
    Thank you, Mr. Chairman.
    Chairman Royce. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman, Ranking Member Engel, 
for conducting this timely hearing. I would also like to thank 
our witnesses for being here today.
    It is an important presence that we will be able to discuss 
with your expertise the intricacies of this framework and I 
know that my colleagues will benefit from your testimony.
    The indefatigable work of Secretary Kerry and Secretary 
Moniz have helped to advance us to a historical juncture and 
yet the history of Iran's actions in the nuclear arena do not 
inspire confidence.
    For any agreement to succeed, it is critical that Iran's 
compliance is verifiable. This will require so-called invasive 
inspections and monitoring that, to me, are the key to any 
framework.
    There remain further details and questions that I am 
confident will be addressed this morning and I look forward to 
hearing from our witnesses.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you.
    This morning we are pleased to be joined by a distinguished 
group of experts. Mr. Charles Duelfer was a top official of the 
U.N. weapons inspection organization. Mr. Stephen Rademaker is 
the former Assistant Secretary at U.S. Department of State for 
the Bureau of Arms Control and Bureau of International Security 
and Nonproliferation.
    By the way, Mr. Rademaker is a national security project 
advisor at the Bipartisan Policy Center and formerly served as 
chief counsel to this committee and we welcome him back.
    And Mr. David Albright is the founder and president of the 
Institute for Science and International Security in Washington, 
DC, and has appeared before this committee on numerous 
occasions and we welcome him back as well.
    And without objection, the witnesses' full prepared 
statements will be made part of the record and members will 
have 5 calendar days to submit any statements or questions to 
them or extraneous materials for the record.
    And, Mr. Duelfer, please summarize your remarks.

STATEMENT OF MR. CHARLES DUELFER, CHAIRMAN, OMNIS, INC. (FORMER 
       CHAIRMAN, UN SPECIAL COMMISSION ON IRAQ [UNSCOM])

    Mr. Duelfer. Thank you, Chairman Royce and Congressman 
Engel, members of the committee.
    I last appeared before this group a decade ago when I was 
presenting the results of an outfit which was named the Iraq 
Survey Group headed by the CIA in which there were many members 
from the military and every part of the U.S.----
    Chairman Royce. I am going to suggest that you get that 
mike a little closer.
    Mr. Duelfer [continuing]. Many members of the intelligence 
community. I thank the committee for remembering that work and 
for learning from the past because the experiences and the 
knowledge that we gained came at a great price.
    We lost people in that exercise. I want to note their 
names. We lost Sergeant Lawrence Roukey of Maine, Sergeant 
Sherwood Baker of Pennsylvania, Sergeant Don Clary of Kansas 
and Sergeant First Class Clint Wisdom, also of Kansas.
    So the knowledge that we gained was expensive and I am very 
glad that this committee is taking that into account in 
considering the issues that we face today.
    As the chairman mentioned, I spent a lot of time at the 
U.N. as the deputy chairman of the Iraqi inspection team and I 
am going to draw some points based on that experience, just a 
few.
    First of all, as some people have noted in their opening 
remarks, we had greater authority in those days than anything 
which has been contemplated for Iran.
    We could go anyplace anytime. We could take things into 
Iraq. We could take things out of Iraq. We operated 
helicopters. We had U-2 missions. We had sensors. We could 
interview anyone. We could seize documents.
    We could do all of that, and yet we struggled after 6 or 7 
years and we couldn't accomplish the task that was given us. As 
it turned out, Saddam Hussein had given, at the end of the day, 
more than we expected. But the fact was we could not confirm 
that. So even with all that access we could not do the job.
    Second point--in the current set of circumstances it is 
envisioned that the sanctions will remain off of Iran unless 
there is some indication otherwise as reported by the 
inspectors. That is upside down with respect to what we had in 
Iraq. In Iraq, the sanctions stayed on until and unless the 
weapons inspectors reported that Iraq was compliant.
    I would suggest that that dynamic makes it much tougher for 
the head of the inspection team to report to the Security 
Council and to the world. It is a much tougher thing to do to 
say something which will cause sanctions to come back in.
    Third point--it is a very tough position to be as a weapons 
inspector at the intersection of political science and physical 
science. There is a lot of pressures which are going to be put 
on the director general of the IAEA in the circumstances as 
painted out by the current agreement.
    He is going to have the Iranians on one side arguing a 
case. He is going to have the Security Council on another side 
and he is going to have individual countries, all making cases 
to him.
    Fourth point--evidence is always ambiguous. You are never 
going to find something that just is unavoidable. Weapons 
inspectors find things which are indicators that suggest 
certain things.
    So how the weapons inspectors report that is always 
flexible. The number of meetings we had in the 1990s with 
Council members, with the Council itself, arguing over how we 
would characterize the evidence that we found was a very, very 
difficult process.
    In that light, I would note from the experience we had in 
Iraq where we interviewed Saddam, we talked to his top people, 
we learned just how aggressive some other countries were in 
making sure that favorable treatment was given to Iraq in the 
Security Council and elsewhere.
    So while there may be unanimity in the Security Council and 
among the international community at one point in time, there 
is a natural tendency for that--those interests to diverge over 
time, particularly once business is going on, when people have 
a financial stake in the continuation of the lifting of 
sanctions.
    Finally, I would just say in Saddam's case he took a long 
view. He took a very long view. Yes, he wanted to get out of 
sanctions in the short term.
    But it is worth recalling--and we learned this from him 
directly--that he had every intention of reconstituting his 
weapons programs when circumstances permitted.
    So, you know, we, in this town, tend to have a short view--
election cycles, business cycles, news cycles. We tend to 
discount the future very heavily. I suggest that other 
countries don't have that viewpoint.
    Thank you very much.
    [The prepared statement of Mr. Duelfer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Chairman Royce. Mr. Rademaker.

   STATEMENT OF THE HONORABLE STEPHEN G. RADEMAKER, NATIONAL 
 SECURITY ADVISOR, BIPARTISAN POLICY CENTER (FORMER ASSISTANT 
  SECRETARY, BUREAU OF ARMS CONTROL & BUREAU OF INTERNATIONAL 
    SECURITY AND NONPROLIFERATION, U.S. DEPARTMENT OF STATE)

    Mr. Rademaker. Thank you, Mr. Chairman and Ranking Member 
Engel, members of the committee. I am very pleased to be back 
here testifying on this issue.
    You may recall I testified in June of last year on the 
Joint Plan of Action so I welcome this opportunity to comment 
on development since that time in the negotiations with Iran.
    I want to note at the outset that the subject of this 
hearing is verification. However, the invitation letter I 
received indicated, and I will just paraphrase this, but I was 
told that the committee will be particularly interested in my 
larger analysis of what this deal would mean for Iran's nuclear 
program, assuming it upholds the agreement.
    So I am taking that as an invitation to not focus so much 
on verification issues. We have two bona fide experts here on 
the panel who, I think, can do that. I will talk more to the 
broader implications of the deal, and I have submitted a 
prepared statement which I will summarize.
    But I want to note at the outset that I strongly agree with 
the opening statements that I heard from all the members--the 
chairman and ranking members--and I am very pleased to see that 
you are asking all the right questions.
    The most important point I make in my prepared statement is 
that at a fundamental level what the deal that it appears is 
going to be reached between the P5+1 and Iran fundamentally 
signifies is acceptance by the international community of Iran 
as a nuclear weapons threshold state.
    Now, let me just say that again. Fundamentally, this deal 
will represent acceptance of Iran as a nuclear weapons 
threshold state. Now, I am not saying they are going to--I am 
not saying we are accepting that they will have nuclear 
weapons. Because they are remaining a party to the NPT they 
have a legal obligation not to produce nuclear weapons.
    But to use a football metaphor, what we are agreeing to 
here is that we are agreeing to a pathway, to a process. But at 
the end of that pathway--10 to 15 years--the football line--the 
football is going to be on the 1-inch line and, you know, they 
are that close to having a nuclear weapon and that is 
fundamentally what is being agreed here.
    And, you know, this is a radical departure in U.S. 
nonproliferation policy because it has been the objective of 
the Clinton administration, the Bush administration and the 
Obama administration until now not just to deny Iran a nuclear 
weapon but also to prevent them from being a nuclear weapons 
threshold state because countries that are on the 1-inch line--
that are that close to having a nuclear weapon--for all 
practical purposes in their international relations they have 
to be treated as if they did have a nuclear weapon because, you 
know, honestly, at any given moment they are so close to having 
it--a screwdriver turn away--no one knows for sure that they 
don't have a nuclear weapon.
    So they get the deference of a nuclear weapon state even 
without having demonstrably produced a nuclear weapon and that 
is essentially what is being conceded here at the end of this 
process.
    So by any measure this is a huge retreat in U.S. policy and 
a big victory for Iran because, you know, for two decades they 
have been trying to get to this point and what they are being 
promised now is, after two decades of effort, in another 10 
years they will have what they have long wanted.
    Now, why are we doing this? Well, I think we have all heard 
the argument. The main argument made by the Obama 
administration is that this is a very good deal because it will 
increase Iran's nuclear weapons breakout time from 2 to 3 
months today to 1 year.
    And that is--you know, I think Mr. Albright and his group 
have raised some questions about whether that is really true 
but for purposes of my testimony I am assuming that is true and 
I will concede that that is an important accomplishment.
    I mean, we are uncomfortable with Iran being able to 
produce a weapon--a nuclear weapon within 2 or 3 months and 
extending that to 1 year would be an important development.
    The question I ask in my testimony is if that is an 
important victory for us today why does it stop being important 
in 10 years. You know, and let me be clear--what happens in 10 
years is not that we revert to the status quo, that they go 
back to a 2-month or 3-month breakout time.
    No. At the end of 10 years and especially after 15 years 
they are going to go back to a radically shorter breakout time 
than that and that is basically all locked in under this 
agreement.
    And this isn't just my opinion. I mean, President Obama 
conceded this 2 weeks ago in a radio interview. I will just 
read what he said. He dismissed concerns that there--you know, 
of the type that Mr. Albright is raising about whether the 1-
year breakout time is real.
    But then he went on to say what is a more relevant fear 
would be that in year 13, 14, 15 they have advanced centrifuges 
that enrich uranium fairly rapidly and at that point the 
breakout times would have shrunk down almost to zero.
    That is President Obama's characterization of the deal, and 
let me--let me stress he is talking about what happens after 
year 13. The way this deal is structured there are additional 
significant restrictions that remain in place until year 15.
    So if at year 13 it is already almost down to zero for them 
to break out and produce a nuclear weapon it is even less than 
zero after year 15 when additional restrictions come off of 
their program.
    So if anything else--if nothing else, President Obama was 
actually understating the effect of this deal ultimately on 
Iran's nuclear breakout time.
    I think another point we have to understand about this 
breakout is that when they break out after year--you know, 
today when we are talking about nuclear breakout we are talking 
about how much time would they need to produce one weapon--one 
nuclear weapon.
    After year 15, we are not going to be worried about one 
nuclear weapon. I mean, they will be on the 1-inch line for 
producing dozens of nuclear weapons--so, you know, an entire 
arsenal if they want and that is--that is the situation we are 
looking at.
    In my testimony, I characterize this as a Faustian bargain 
because, you know, it is similar to the German legend about the 
man who, you know, wanted magical powers and so he cut a deal 
with the Devil where for 24 years he was given magical powers 
but at the end of 24 years he loses the powers and he loses his 
soul and spends--you know, faces a life of eternal damnation.
    That is essentially what is being negotiated here. We get 
the benefit, good for 10 years, and at the end of that the 
other side gets everything that they have ever wanted and we 
lose the right to complain about it. We lose the right to 
reimpose sanctions.
    If we try to change the terms of the deal, Iran will be in 
a position to accuse us of being the lawless nation, the nation 
that violates its international commitments.
    Mr. Chairman, I see I am out of time. Let me just say, you 
know, I do make the point in my testimony that sometimes it 
makes sense to enter a Faustian bargain.
    If you think--if you think the Devil is going to die before 
he is able to claim your soul or if you think he is going to be 
radically transformed then maybe it is a sensible thing to do.
    And I served on the staff of this committee in the 1990s 
when the Clinton administration negotiated a nuclear deal with 
North Korea called the agreed framework, and they didn't 
advertise or they didn't make this argument publicly but I can 
tell you that the Clinton administration officials privately 
basically said, you know, don't worry about this being a 
Faustian bargain because haven't you--this is 1994--haven't you 
noticed what is going on in the world.
    You know, communism is doomed. You just saw East and West 
Germany just reunified. So yes, we are promising all these 
benefits to North Korea but we are going to build nuclear 
reactors there and all these things. But, you know, in 15 years 
by the time we are done with these nuclear reactors North Korea 
is going to be long gone. These are going to be South Korean 
nuclear reactors.
    And, you know, in 1994 that seemed like a fairly persuasive 
argument. Now, we know with the benefit of hindsight that it 
was wishful thinking.
    I mean, the North Korean regime is still there. They are 
still pursuing nuclear weapons. The question I ask in my 
testimony is, you know, is there any reasonable basis to 
suspect that in 10 years the Iranian regime is going to be gone 
or radically transformed and I suggest that actually to the 
contrary there is every reason to think that this agreement 
strengthens the Iranian regime and makes it much easier for 
them to resist pressures to change.
    And I, you know, go through some financial numbers. The 
amount of cash that Iran is to get at the outset of this deal 
and, you know, quickly thereafter--with your indulgence I will 
just read the numbers. And this is according to a Wall Street 
Journal story that appeared last Friday.
    It says that the Obama administration estimates that 
implementation of the deal will give Iran access to $100 
billion to $140 billion--billion U.S. dollars--in frozen funds 
in offshore accounts with $30 billion to $50 billion of that to 
be released immediately upon signature.
    And, now, understand the Iranian Government budget this 
year is about $300 billion, okay, so they are being offered 
$100 billion to $140 billion, $30 billion to $50 billion of 
that immediately.
    Now, to put that in perspective let us--you know, 
relative--let us look at what that would mean if--you know, if 
it were not Iran but the United States. The U.S. budget in--the 
Federal budget this year is $3.9 trillion.
    So if we were being offered an equivalent amount of cash it 
would be for the United States between $1.3 trillion and $1.8 
trillion with $390 billion to $650 billion of that to be 
provided immediately upon signature.
    So, you know, the question I ask in my testimony is if the 
United States Government were being offered, roughly, $1\1/2\ 
trillion and $390 billion to $650 billion of that immediately, 
how much pressure would we feel to scale back our international 
commitments to reduce our defense spending? How much pressure 
would we feel to implement, you know, political reforms?
    Or would we feel like hey, we are in a much better position 
to continue doing business the way we wanted to do business. 
And, you know, and I am talking here just about the cash 
dimension, which is actually the less important dimension.
    [The prepared statement of Mr. Rademaker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
                       ----------                              

    Chairman Royce. Well, we are going to go to Mr. Albright. 
But on that cash dimension, what they are doing with that 
signing bonus in today's Wall Street Journal tens of millions 
of dollars to--Iran's Revolutionary Guards are transferring 
tens of millions of dollars this week to the--to the Hamas 
brigades.
    So but anyway, Mr. Albright.

    STATEMENT OF MR. DAVID ALBRIGHT, FOUNDER AND PRESIDENT, 
        INSTITUTE FOR SCIENCE AND INTERNATIONAL SECURITY

    Mr. Albright. Thank you, Mr. Chairman, Ranking Member Engel 
and other members of the committee. I appreciate the 
opportunity to testify today.
    I think Steve has outlined a future that is fairly bleak 
and I would like to return to that, if not at the end of my 
testimony during the question period.
    Most of the points I would like to--will make have 
essentially been made before. I mean, I think the--many of the 
key verification provisions remain unresolved. I mean, the 
parameters have been set but the details matter and there is 
great differences between Iran and the United States and its 
partners.
    And more important, I think the Iranians have taken the 
position to be extremely defiant and the United States has 
taken the position of problem solving, and I think that has put 
us at a disadvantage and it doesn't bode well for finding 
solutions that are, in a sense, gain the needed measures.
    Now, where Iran has been a problem some of these things 
have been pointed out--refusing to allow the IAEA inspectors 
into military sites, not resolving the IAEA's concerns about 
Iran's past work on nuclear weapons through 2004 and possible 
work afterwards.
    It has refused to stop illicit procurements for its nuclear 
programs. I know of at least one procurement since the JPA was 
implemented for the Iraq reactor that was attempted. I am told 
my U.S. investigatory officials there have been others.
    Iran is resisting U.N. Security Council mandate controls 
over the procurement channel, which is an important concession 
that has been gained. But here is an example where the details 
matter.
    Most of us think of the procurement channel run out of the 
United States or the U.N. Security Council with IAEA monitoring 
active verification of the end use of any goods that goes to 
the nuclear program.
    Iran prefers a much different method, and at this point in 
time which method would be used is unresolved. And as others 
have mentioned, Iran is refusing anywhere anytime inspections.
    And I think the--at this point in time the United States is 
going to have to take steps to significantly strengthen this 
deal and end up with the provisions meeting the U.S. conditions 
if this deal is to be verifiable.
    And as I have mentioned, others have mentioned, there are 
legitimate concerns that the U.S. administration will not 
succeed and that concern certainly justifies Congress' 
continuing strong involvement in the creation of this 
agreement.
    There needs to be oversight on those conditions and I feel 
that the--what I have heard the United States administration is 
more willing to share what is going on in this deal with 
Members of Congress, and I don't just mean ranking members and 
chairman but a broader set of members and their staff so that 
people can see the details and be able to react to those 
details.
    Now, from my organization's point of view, there is certain 
conditions that are more important than others and I think 
members of this committee share this.
    I personally think that resolving the IAEA's concerns about 
past and possibly ongoing nuclear weapons research and 
development work is critically important and to have concrete 
progress on that prior to any key relief of economic and 
financial sanctions by the United States or the EU--that there 
are many other conditions that also have to be met such as 
reducing the number of centrifuges but concrete progress in 
this area is necessary.
    And what would concrete progress look like? Certainly, IAEA 
access to Parchin. But people should think of Parchin as a list 
of activities. It is not just a single visit. It is being able 
to see the equipment associated with the site. It is being able 
to visit the company that made this controversial high 
explosive chamber--did it make other chambers. It is the 
ability to have access to the people involved in these 
experiments and I would argue all of this needs to happen 
before the key sanctions are lifted.
    Moreover, I think there needs to be time for IAEA to make 
an initial determination of whether Iran had a nuclear weapons 
program or not. I mean, the IAEA has said it plans to do that.
    I think it should be done before the sanctions are 
relieved. Another vital area is this question of proliferation 
of sensitive goods.
    From my own point of view. I would like to see the U.N. 
Security Council resolution stay in force until the IAEA has 
made a determination that Iran's program is indeed peaceful. 
That is not a short process, particularly under the additional 
protocol to make that determination.
    But, personally, I think that is the way it should be. The 
framework envisions perhaps the Security Council resolutions 
coming off quicker but a new resolution being established that 
would then control these proliferation-sensitive goods.
    Whether that is adequate or not I don't know. Part of it 
rests on a list of goods that would be provided to Iran that 
represent the ones that are explicitly controlled. Is that list 
good enough? Our initial indications are that list is not 
sufficient and needs to be, in a sense, longer in order for it 
to be effective.
    Also would like to see Iran commit to not conduct illicit 
nuclear trade. President Rouhani himself has said they are 
proud of smuggling. Never heard a President of a country ever 
say that. They will continue their illicit procurement 
patterns.
    Without a commitment on the nuclear, at least, it is hard 
to see that they are committing to a verifiable regime. And 
then again, let me just end that the additional inspection 
provisions are critical.
    Now, anytime inspections are theoretically impossible and 
what Charles Duelfer described in Iraq could never--probably 
never be obtained. But what is envisioned by Iran is completely 
unacceptable. Even what is in the additional protocol is not 
enough.
    You have got to have prompt access and the administration 
has some proposals. Iran has not accepted those and I think the 
administration needs to be pushed to have even more prompt 
inspections and certainly they need to be pushed to press Iran 
to accept anywhere inspections. That, as several members have 
pointed out, is not the case today and Iran has said it has no 
intention to do that.
    The last thing I would like to say is that this deal, and I 
believe it probably will happen, is going to be very tough to 
implement and I would argue one of the problems with the agreed 
framework negotiated with North Korea in the '90s, as Steve 
mentioned, is that the administration kind of didn't do very 
much on implementation and Congress mostly focused on some of 
the budgetary issues and some of the compliance issues.
    But the--but there wasn't active work to ensure that the 
deal was implemented and compliance was obtained and/or 
punished if it wasn't going to happen.
    So I would argue that Congress will have a continuing role 
and will need to have a very important role in monitoring the 
effectiveness of this deal both in the short term and in the 
long term.
    Thank you.
    [The prepared statement of Mr. Albright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                       ---------- 
                       
    Chairman Royce. So if I can go back to Mr. Rademaker, as 
I--as I mentioned this morning in the press is this report, and 
I talked about viewing this sanctions relief as a signing 
bonus, basically, what are they doing with the relief they 
already have?
    And the fact that the Iranian regime is so engaged right 
now with the anticipation of getting the relief--the remarks by 
one of the ministers that, you know, they control four Arab 
capitals today. He was speaking of Yemen as well as other 
countries that have fallen under the sway of the Quds Forces.
    The Quds Forces is very active and this week, according to 
Western intelligence, Iran's Revolutionary Guards during the 
past few months have transferred tens of millions of dollars to 
Hamas' brigades.
    Intelligence reports show that the funds have been 
transferred on the direct order of the commander of the 
Revolutionary Guards' elite Quds Force who also dedicated an 
annual budget to finance Hamas' military operations.
    The funds, according to the intelligence report, are being 
used primarily to help Hamas rebuild the network of tunnels 
that were destroyed, and apart from using Iranian aide to 
rebuild the tunnel network the brigades are also replenishing 
their depleted stocks of medium-range missiles, according to 
officials.
    So the consequences of this negotiation--this olive branch, 
to put it in the words of the administration, that is being 
extended--is not an Iran that is changing its behavior. If we 
read anything from attitude, you know, you take a look--and I 
am going to quote Dennis Ross this week from something he 
wrote:

        ``The more the Supreme Leader makes specific points 
        about the content and purposes of the negotiations in 
        public the more his comments are likely to tie the 
        hands of his negotiators.''

    I think his point is that, you know, that is what has 
happened so far. The Supreme Leader insisted in public that 
Iran have enrichment and what happened? They got enrichment. 
That they not dismantle the facilities, which I thought was 
part of the original plan--he succeeded.
    That they be allowed to continue R&D, so they succeeded. 
That they have an industrial-sized program--on all of these 
points, the U.S. negotiators conceded.
    So when the Supreme Leader talks, whether it is on negation 
positions in terms of the agreement or it is on the position of 
death to America, a chant that he still leads every week, 
apparently people listen. And I wanted to ask your opinion and 
the other panelists' opinion on that point.
    Mr. Rademaker. Mr. Chairman, I certainly have to agree with 
you that if you look at the declared red lines on our side and 
on the Iranian side at the outset of these negotiations and you 
look at what appears to be emerging as the final agreement, the 
final agreement is pretty much consistent with the Iranian red 
lines and bears little relationship to the red lines that were 
declared on our side going in.
    So what that tells you is that during the course of the 
negotiations on issue after issue the Iranians prevailed and we 
backed down. And regrettably, we still don't have a final deal 
and, I mean, you have watched the spectacle of the dueling fact 
sheets--of the U.S. fact sheet and the Iranian fact sheet--and 
the Iranians saying that the U.S. fact sheet is all wrong and 
the Supreme Leader taking issue with some of the details.
    So I think, you know, the testimony we are presenting today 
is based on what we understand and most of us are relying on 
the U.S. fact sheet. But, you know, from the outset both sides 
have said in these--in this negotiation nothing is agreed until 
everything is agreed.
    So I think it is a fair statement that everything remains 
subject to negotiation and I am not sure we have seen the last 
of the retreats on our side in the negotiations, regrettably.
    You asked about what is Iran doing with the funds and you 
are referring to sort of--they are getting it is around $4 
billion or $5 billion a month now--as sort of a down payment on 
this much larger amount of money that is--it is Iranian money 
but it is foreign bank accounts and due to U.S. sanctions that 
Congress enacted--the so-called Menendez-Kirk sanctions--the 
Iranians are not able to spend that money. They are not able to 
bring it back to Iran.
    They are able to spend it in India or Japan or China. But 
anyway, you know, what we know is that as part of this deal 
they will be able to bring that money home. There are no 
restrictions on what they do with that money. That is just not 
part of the deal and what they----
    Chairman Royce. It is funding.
    Mr. Rademaker [continuing]. Have been doing with the down 
payments give an indication of what they will do with the much 
larger sums that are coming in the future.
    Chairman Royce. And Mr. Albright, you had a point you 
wanted to make?
    Mr. Albright. Yes, I want to make a point. I think--I want 
to emphasize that the limits for the first 10 years in a 
negotiation that is difficult aren't that bad. I mean, it is 
really--there is questions--the real question is after that 10-
year about what is going on.
    But I think that it should be recognized that Iranians had 
to give a lot on that--in that 10-year period and, again, we 
can--I have disappointments with Fordow, with centrifuge R&D.
    But centrifuge R&D in that 10-year period is pretty 
severely limited. I would have liked it not to happen on the--
particularly the advanced ones called the IR6 and the IR8.
    But nonetheless, those limitations are in place. I also--
but I also think that where Iran has been very tough is on the 
verification issues and that is where I think the real holes in 
this deal can show up that are going to affect what happens in 
the first 10 years.
    Chairman Royce. Thank you. Thank you, Mr. Albright.
    Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    I would like to read something and then ask any of our 
panelists who would care to comment on it to please do so. The 
parameters that the United States published in violations of 
the Joint Comprehensive Plan of Action states, and I quote,

        ``The architecture of U.S. nuclear-related sanctions on 
        Iran will be retained for much of the duration of the 
        deal and allow for snap back of sanctions in the event 
        of significant nonperformance.''

    I would like to ask you in your opinion what would 
constitute significant nonperformance, what would insignificant 
nonperformance be, who should determine whether Iran has 
violated the agreement and what obstacles should we watch out 
for in the execution of this part of the agreement--whoever 
would care to answer it. Mr. Duelfer.
    Mr. Duelfer. That gets to a point I was trying to make in 
my introduction which is that there will be no consensus on 
that among the international community.
    The pressure will be put on the director of the IAEA to 
make a judgment. At the end of the day, there is no--there is 
no cookbook answer to it.
    He will have to make some judgment about whether, you know, 
compliance exists or doesn't exist and he is going to be under 
enormous pressure in that case. It is also the case that it 
will be very important, however the final agreement is 
structured, that noncooperation be equated with noncompliance.
    In other words, if the Iranians don't answer the questions, 
such as related to Parchin or otherwise, then the secretary 
general or the director general of the IAEA can report to the 
Security Council that they are in violation. That is the only 
way you can really empower him in that--in that dilemma he 
faces.
    Mr. Engel. Thank you. Anybody else? Mr. Albright.
    Mr. Albright. Yes. One is I don't think the snap back 
provision has been negotiated.
    I think it is going to be extremely difficult to negotiate, 
particularly if you then include snap back on U.N. Security 
Council sanctions. And also I think it has to be recognized 
that it is mostly a deterrent.
    I mean, if you do have to snap back and that succeeds, 
having Iran change its behavior significantly within a 1-year 
breakout period is going to be very difficult. I think you will 
be forced at that point to confront a military option and won't 
be able to rely on the effective sanctions kicking in and 
having an effect.
    Now, another point is in the--in the JPA the IAEA has not 
been given the mandate to determine compliance. I don't think--
and I don't know if it is going to be given that mandate in 
the--in the long-term deal.
    And the IAEA reports but it does not determine 
noncompliance, and so I think that is a question for this deal 
is who is going to do that and I don't know what the answer 
would be.
    I would suggest it shouldn't be the IAEA. I mean, it is not 
the best agency to determine something as important as this. 
Another issue is snap back does not touch the--I guess what 
Congressman Engel called the nonsignificant nonperformance.
    I mean, that is really aimed at fairly major noncompliance 
which, again, will have to be defined what that is. One can 
imagine. But there is going to be a whole set of probably 
noncompliance that is small and but over time could add up to 
major noncompliance.
    And how do you deal with that? And I am not sure that is 
even really being discussed in these negotiations of how do you 
deal with minor noncompliance except by putting--let us say the 
U.S. would put political pressure on Iran like what it did with 
the IR5 when Iran started to operate or feed in uranium 
hexaflouride gas and enrich it--and again, it is remixed with 
the tails afterward so no enriched uranium comes out in the 
process but nonetheless it does enrich and the Iranians see how 
well it works.
    But in that case, U.S. put political pressure on Iran to 
stop and it did. But is that going to work in general? And I 
would argue probably not and that there does need to be another 
mechanism to deal with these, I would almost call, minor 
violations. But over time these minor violations could undo the 
deal.
    Mr. Engel. Let me ask you then, Mr. Albright, what do you 
recommend for proper verification after 15 years when Iran is a 
signatory to the additional protocol and will the additional 
protocol without some of the other more intrusive inspection 
mechanisms be enough to detect breakout?
    Mr. Albright. Well, I think the intrusive methods are going 
to have to last indefinitely. I mean, I think it definitely 
doesn't mean forever but I think there has to be some kind of 
review mechanism built into this deal where the P5+1 can decide 
at some point in time to take away those intrusive measures.
    So I don't think they should sunset. I think it is very 
risky, in fact, to have these measures sunset. And so I think 
the--and Steve raised this too, you know, this question of 
breakout.
    From my understanding of the deal is that at year 13 the 
breakout time would be 6 months. There would be all kinds of 
conditions put on centrifuge types, numbers and within that 6 
month breakout criteria.
    But after year 13 all bets are off and that is probably not 
the best place to be and if it is going to be the place then 
there really does need to be some significant review of this 
situation so that additional action can be taken and, I would 
argue, should be in the deal--should also be in, I would hope, 
in any legislation that is created--that there has to be 
mandatory review of what is going on with the potential to 
change the course.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    As all of us know, Iran has been--has many years of 
experience playing cat and mouse with the IAEA and has learned 
from the Iraq model well enough to know that it can stifle even 
the most robust and intrusive inspections as the President 
claims that he has won from these negotiations.
    What makes this whole nuclear negotiations debacle even 
more rotten is that President Obama has been disingenuous at 
best with Congress and with the American public about what is 
really in this deal.
    Two of the most egregious examples are the lifting of 
sanctions and the reports that surfaced this week that the 
President had kept Iran's estimated breakout time a secret 
until the framework agreement was announced.
    From the very beginning, most of us in Congress decried 
these negotiations because they only focused on the nuclear 
aspect of Iran's illicit behavior and because we wanted to 
prevent Iran from ever acquiring a nuclear weapon, not just 
delaying that capability.
    The administration insisted that these negotiations be 
about the nuclear program alone. Now the administration will 
seek to lift all U.N. Security Council sanctions including 
those on ballistic missiles and conventional military programs.
    The rationale? Because those sanctions were implemented as 
part of the nuclear-related resolutions at the U.N. Security 
Council.
    So for the purposes of lifting sanctions and giving the 
Iranian regime more concessions and access to hundreds of 
billions of dollars to use to spread its terror and attack U.S. 
interests then ballistic missiles, Iran's support for terror 
and its conventional military programs are nuclear related. But 
when it comes to negotiating this raw deal none of that was 
nuclear related.
    So Mr. Duelfer, there have been reports that the 
administration will give what we have been talking about--Iran 
essentially a signing bonus of $500 billion. How are we 
weakening the IAEA's ability to monitor and verify Iran's 
nuclear program if we already concede billions of dollars to 
Iran up front?
    And related to that, if we provide this signing bonus what 
leverage do we have left with Iran to force this country to 
comply and answer all of the IAEA's outstanding inquiries?
    Mr. Duelfer. Well, therein lies, I think, the dilemma 
that--not just in Washington but the P5+1 faces--how do you 
compel compliance? And in the case of Iraq I have a lot of 
history and I spent a lot of time there and I should add that I 
think the Iranians killed a lot more Americans than ISIS has 
ever killed so that, perhaps, colors my views on this, you are 
exactly right because the director general of the IAEA has a 
limited ability.
    He can only report within the parameters of what he knows 
and makes judgements about that. He cannot cause Iran to 
comply. Only the Security Council and other members can cause 
Iran to comply.
    Once the sanctions are off, signing bonus or no signing 
bonus, the momentum is people want to get on with business. 
Russians, you know, demonstrated this in great detail with 
respect to Iraq where they----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Duelfer [continuing]. Explained the last.
    Ms. Ros-Lehtinen. Thank you so much. And Mr. Albright, you 
have been saying for a long time now that despite the Obama 
administration's claim that Iran's breakout time was over a 
year, Iran could actually be closer and potentially even less 
than the administration's current public estimate of 2 to 3 
months.
    How does allowing Fordow to remain active--what does that 
mean for a breakout time and how long would it take to test a 
nuclear device underground and what kind of assurances do we 
have that we could detect it in time?
    Mr. Albright. So a lot of questions. Let me--certainly, my 
preference would have been that Fordow wouldn't have any 
centrifuges.
    So because it does you have to continue to factor that into 
breakout estimates--the full 1,000 that are there. You could 
reduce them as they become unavailable in some significant way 
but it still counts in the breakout.
    One administration idea is to--is to have any work that is 
done involving enriching nonuranium isotopes be such that it 
contaminates the centrifuges against use by uranium in the 
future and there is some isotopes where that is true--for 
example, molybdenum, and having that in the deal will mitigate 
some of the risk of Fordow but not all of it.
    In terms of testing a nuclear device, I mean, it is--the 
estimates vary. I mean, it is very tough to determine or figure 
out when a country is working on that. Part of the concern 
about--of the PMD, as the IAEA likes to call it, is that Iran, 
in their view, knows how to build a crude nuclear weapon and 
therefore if they were--had the nuclear explosive material, the 
weapon grade uranium, in sufficient quantity then it is 
probably not a long road in order to fashion it into a device 
that could explode underground or a crude kind of nuclear IED. 
And so that could be a matter of just several months.
    Ms. Ros-Lehtinen. Thank you, Mr. Albright. I know my time 
is up.
    Thank you, Mr. Chairman.
    Chairman Royce. Mr. Brad Sherman of California.
    Mr. Sherman. Thank you. It is said that no deal is better 
than a bad deal. That looks good on a political bumper sticker. 
I think our choice is between a bad deal, perhaps a very bad 
deal, and a very bad and intractable situation.
    I want to thank Mr. Rademaker for making it clear just how 
bad this deal is in year 10 or maybe year 13. They will 
literally be on the 1-inch line.
    The President has acknowledged that. You have said it 
clearly. And the reason for that is during this deal they will 
have, roughly, 5,000 centrifuges that are IR1s.
    Starting in year 10, maybe if we negotiate very well year 
13, they can have an unlimited number of centrifuges and those 
centrifuges will be perhaps 10 times as efficient and that will 
shrink their breakout time from 1 year to 1 day.
    Just do the math--20 times as many centrifuges and those 
centrifuges are 10 times as powerful. So the question--you 
know, I know we are supposed to ask you questions but people 
are asking us questions--what do we do now and what do we do 
when a deal is submitted to us.
    As to what we do now, we have got to put pressure on the 
President to at least meet his minimum objectives, and I think 
you gentlemen have pointed out two very important areas.
    One is the signing bonus--the idea that if we release $30 
billion or perhaps $130 billion while Iran keeps its stockpiles 
and hasn't yet dismantled the centrifuges Iran could take all 
the benefits and back out of this deal by Labor Day $130 
billion richer.
    The purpose of these hearings is to focus on verification. 
We need go anywhere, go anytime or almost any--or with a very 
short notice and we need to be able to use environmental 
testing. The administration has said they are going to achieve 
that but then I--we saw Secretary Kerry try to argue to us that 
don't worry, Iran won't have a nuclear weapon because they 
can't have a nuclear weapon because that would violate the 
nonproliferation treaty.
    That is using the word can't as you can't do it and still 
be an upstanding honest nation. I don't think that is a real 
bar to Iran. We are told that the additional protocol is going 
to give us access, and I am going to get to that in a question.
    Trust me there is a question in here somewhere. The--I want 
to commend the chairman for having these hearings because that 
is part of the effort of letting the administration know that 
they have to meet at least their own stated minimum objectives.
    And finally, the administration will tell us that these 
inspections are the most intrusive ever. That is comparing 
these inspections to what we need to make sure the Netherlands 
doesn't develop a nuclear bomb.
    We have to compare these inspections to what we need to 
prevent Iran from having a nuclear bomb. The question of what 
we do long term when a deal is--if a deal is submitted that the 
President submits to us and has accepted there are those who 
say we blow up the deal where does that leave us.
    It leaves us with the whole world thinking that Congress is 
the unreasonable party. It leaves us with an administration 
that has taken the military option off the table.
    It leaves us with Iran's centrifuges all intact rather than 
two-thirds to three-quarters dismantled. They are stockpiled, 
ready to go. They are a few months away and nobody wants to 
cooperate with us in international sanctions because the 
President has said that it is the Congress, not the ayatollahs, 
that are being unreasonable.
    After all, the ayatollahs will have signed the agreement 
and Congress will have blown it up. But the other side of this 
is that we cannot approve the agreement and leave it to a 
future President and a future Congress to decide what to do in 
2 years, 5 years or 10 years because as I think Mr. Albright 
has pointed out, this might be a good deal for 10 years, might 
even be a good deal for 13 years but after that it is a deal to 
put them, as Mr. Rademaker says, on the 1-inch line.
    If I can sneak in a question--Mr. Albright, it took us 2 
years to get into Fordow. Does the additional protocol and the 
NPT give us the kind of prompt access that we would need?
    Mr. Albright. No. No, no. It has to be supplemented. I 
mean, it can't be--Iran could slow down the inspectors. They 
could use managed access as an excuse to cover up things.
    Mr. Sherman. How long could they delay us? They delayed us 
2 years for Fordow.
    Mr. Albright. Well, it couldn't--it is going to be shorter 
than that but days matter and in some cases even hours matter. 
So you want prompt access.
    You want to be able to get in the day you ask, for example, 
and you are going to need the deal to ensure that because Iran 
has been--is actively challenging the IAEA on its central 
mission within the--within the Board of Governors.
    And so I think the deal is going to have to include the 
measures explicitly that provide for prompt access and Iran is 
going to have to sign the line so that if it doesn't then it is 
seen as a material breach of this deal.
    Mr. Sherman. Thank you.
    Chairman Royce. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Chairman, and thank you 
again for calling this very important hearing. Welcome to our 
witnesses.
    As we all know, the framework is a colossal retreat from 
the previous internationally agreed upon benchmarks designed to 
deny nuclear weapons capability to Iran. For example, U.N. 
Resolution 1929--to suspend all uranium enrichment--we now know 
that the framework would allow over 5,000 centrifuges and only 
limits research and development with advanced centrifuges--full 
cooperation of the IAEA inspectors, say the U.N. Security 
Council resolutions.
    The framework, we now know, and the statements that have 
come out of high-ranking people from the ayatollah to Rouhani 
to high members of the military establishment, military sites 
are going to be completely off limits.
    I mean, that is a deal breaker in and of itself. And then 
refrain from any activity related to ballistic missiles--U.N. 
Security Council resolutions, ballistic missiles aren't even on 
the table, which is a gross missing element in this entire 
thing.
    Let me just ask a couple of questions. I met and talked to 
Zarif personally about the missing Americans and said if you 
want to show things had changed in Iran allow human rights to 
be respected in Iran for your own people but also for Saeed 
Abedini, Levinson, Hekmati, and Rezaian.
    And I have had two hearings myself on Saeed Abedini and 
they are still being held. That is unbelievable. You know, even 
when Reagan walked away from Reykjavik in 1986 we had a robust, 
on the United States side, discussion with Gorbachev with lists 
of Soviet Jewish refuseniks and other human rights.
    It was always on the table. I had Andrew Natsios, who is a 
leader of an NGO for a pro-human rights for North Korean NGO--
and he said the delinking of human rights with North Korea was 
a major blunder on the part of the Clinton administration and 
it should have been. We got nothing on the nuclear side. If you 
can't treat your people well, why should we respect your word 
when it comes to something so existential as a nuclear bomb.
    So my question is, is this a Pyrrhic victory? Are we on the 
threshold of a Pyrrhic victory when it comes to nuclear 
agreements? I think your Faustian bargain, Secretary Rademaker, 
was very well put. Does the Senate have the ability to deem 
this a treaty and treat it as such?
    I looked into this and studied extensively, you know, the 
State Department has eight criteria--very vague--that they have 
asserted to call this an executive agreement. It seems to me 
that is all too cute because, obviously, the threshold of 
stopping it is reversed.
    You only need one-third plus one to stop a treaty and even 
what Senator Corker has done, which was an outstanding effort, 
given our limited abilities, it seems, you know, he needs two-
thirds to get it passed.
    But why a treaty versus an executive agreement? Let me also 
ask you if you could--similarities with the North Korea deal, 
you know, how many do they have. I remember the hearings in 
this room because I have been here a long time, 35 years, when 
some of the administration people from the Clinton 
administration were bragging how they were going to have an 
onsite inspection and it was going to be, like, 6 months down 
the road.
    And I said, are you kidding me--you think in 6 months you 
will see anything? If they have it, it will be moved somewhere 
else.
    And even the IAEA, in their report in February, they could 
not conclude there was no nuclear weapons-related activities 
taking place in the country due to lack of access, to 
documents, materiel, and personnel. I mean, there are no 
confidence builders coming from the Iranians.
    We are fools, in my opinion, to suggest that this is going 
to be a deal that they will live up to, especially with the 
verification protocols so egregiously flawed.
    So if you could speak to that, Mr. Rademaker.
    Mr. Rademaker. Thank you, Chairman Smith.
    Mr. Smith. Could you add one last thing? If the Iranians 
procure a weapon from another state--they are very close to 
North Korea and we know there is cooperation going on--what 
does that do to the deal?
    Mr. Rademaker. Okay. I will try to address all those 
questions. First, on the treaty versus executive agreement 
issue, you know, I am certainly sympathetic to the concern you 
are expressing but let me just say as the former chief counsel 
to this committee, you know, I think, you know, the legal issue 
is complicated.
    There is a lot of precedent that the administration will be 
able to point to for not treating this as a treaty. So I think 
there is no chance whatsoever that they will agree to submit it 
in that manner.
    So in order for there to be congressional review I think 
what Senator Corker and his colleagues in the Senate have come 
up with is as good as it is going to get. I wish it were a 
better mechanism.
    I wish--I wish the Senate-approved mechanism would require 
approval by majority vote rather than disapproval, which, as 
you pointed out, ultimately requires two-thirds majorities in 
both Houses to override the predictable Presidential veto of 
the resolution of disapproval.
    So it builds in a bias in favor of approval. There is no 
question about that.
    But, you know, I think as a practical matter that is what 
is going to afford congressional review and, as we all know, 
the administration would be happier without even that level of 
congressional review.
    The--on the North Korea issue I spoke to that in my 
testimony. The agreed framework with North Korea was another 
Faustian bargain. It was--it was defensible on the theory that 
the North Korean regime was probably going to collapse within 
15 years.
    That seemed like a reasonable expectation in 1994. It was 
proved ill founded. I am not sure there is any reasonable 
expectation that we are going to see radical change in Tehran 
over the next 10 or 15 years and in the end we were fortunate 
that we got out of the agreed framework because North Korea 
cheated on it and we caught then cheating.
    You know, we can speculate here on what the Iranians will 
do. I guess I would submit that if I were the--well, if the 
Iranians are rational the thing to do for them is to bide their 
time, fully comply and then reap the benefits in 10 to 15 
years.
    Chairman Royce. And quit saying ``Death to America,'' if 
they were rational? Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman, and I thank the 
gentlemen for their testimony. I have been running back and 
forth from different hearings.
    But I traveled to Vienna not too long ago and had a 
conversation with the head of the IAEA because for me--and I 
guess my question, you know, is one can frame the potential 
deal as one that would eventually roll back some sanctions in 
exchange for a significant reduction of centrifuges and 
increased transparency, transparency being the key issue as 
well as the IAEA getting to do the work that they need to do 
and access.
    Now, they told me that at least so far while the framework 
was being worked on Iran has lived up to whatever its 
commitments were.
    But would you say that the key is what would allow an 
inspector to be satisfied in their work in verifying Iran's 
implementation of a deal and is that where and what we should 
be pushing to make sure that there is, in this deal, this 
transparency issue? Is that--would you think that is the key 
here?
    Mr. Albright. One thing--when the IAEA says that Iran has 
lived up to its commitment it is talking about Iran's 
commitments under the interim deal of the Joint Plan of Action, 
which are pretty minimal.
    And so there is some questions, you know, of whether they 
are fulfilling their obligations in a timely manner if you look 
at the issue of newly produced 3\1/2\ percent enriched uranium.
    There is also issues of are they processing the near 20 
percent LEU. I mean, they--ultimately if it is going to be a 
violation or not they have to the end of some period of time 
under the interim deal.
    But the--all these conditions on the interim deal are 
pretty minor and at the same time while it is complying with 
the conditions in this interim deal it is totally uncooperative 
with the IAEA on the big issue of the day--did Iran have a 
nuclear weapons program in the past, can the IAEA have access 
to military sites.
    So in a sense, Iran chooses when it wants to comply and 
will often choose to comply on the minor things while, you 
know, uncooperative or noncompliant on the big things.
    Mr. Meeks. See, here is what my concern is and I have to 
rely a lot on the IAEA and I hope that the committee has a 
chance to go and talk again while--with some of those. I think 
that would be good instruction for all of us.
    Chairman Royce. I have talked to the chairman too.
    Mr. Meeks. That would be great. But my concern is this, if 
we don't engage for example. From what I understand, and you 
correct me if I'm wrong, back in 2003 Iran had 164 centrifuges 
and then by 2008 that figure was close to 5,000. In other 
words, the number of centrifuges increased by 30 times between 
2003 and 2008.
    And so what other alternatives--it seems to me by engaging 
we have rolled back the program. I don't know what the other 
alternative is if we don't continue to engage and try to work 
it out.
    Mr. Albright. Yes. I think engagement makes sense. I mean, 
I think that is the best way to proceed. You know, the obvious 
other option is--that Israel has exercised twice is to bomb 
facilities and I think that is one to avoid at all costs. So I 
think the engagement is the best one.
    But the issue is, and I think Congressman Sherman raised 
it, is that if you get a bad deal or less than adequate deal 
you are probably going to--you are just delaying the time when 
they have nuclear weapons. So that is really----
    Mr. Meeks. So that is why I say the transparency issue was 
tremendously important. So then the question would be what are 
the minimal verification measures that you believe are needed 
in a final agreement to ensure that Iranian compliance would 
provide the high level of confidence that there is not a secret 
Iranian program?
    Mr. Albright. Well, there is a lot of them. I mean, it is a 
complicated deal. I mean, you need anywhere anytime inspections 
or at least approaching the anytime. You need the IAEA having 
its concerns about possible military dimensions of nuclear--of 
Iran's nuclear program resolved.
    You need a very robust control over Iran's imports for its 
nuclear programs and other imports of key goods that could be 
used in a secret nuclear program.
    I mean, there's a--I could go on and on and on. They are 
all--they all have been identified in the negotiations so it is 
clear what needs to be done.
    But what you have, though, is at every opportunity Iran 
tries to erode the U.S. goals in these negotiations and----
    Mr. Meeks. Well, we have got a framework. We don't know 
what the final deal is going to be until we see it in writing 
on June 30th, correct?
    Mr. Albright. Right. And that is right, and so you can't 
judge it until you see it. I mean, I think some--you know, some 
trip wires have been crossed for some members and people in the 
expert community. I think I feel I have to see the deal in 
order to judge it.
    Chairman Royce. Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me just very quickly, if I could--is anything in this 
treaty so far that you understand, would that prevent or is an 
agreement by the mullah regime in Iran not to purchase a 
nuclear weapon from another source?
    Mr. Albright. I don't know if that's in there. It should 
be.
    Mr. Rohrabacher. Okay. You don't know. Yes.
    Mr. Albright. Yes, it should be and we've proposed 
language.
    Mr. Rohrabacher. I understand. No--yes or no?
    Mr. Rademaker. I don't see anything about that in there.
    Mr. Rohrabacher. Okay. No? Okay. Well, that is the answer 
then, isn't it? The answer is <greek-l>is  deg.here we are 
focusing everybody's attention on a nuclear treaty with this 
mullah--repressive corrupt bloody mullah regime when in fact 
even if we get the agreement and even if they abide by the 
agreement they can buy a nuclear weapon from Korea or from 
some--how about Pakistan or some oligarch who happens to have 
gotten away with it as the Soviet Union was collapsing.
    This focus, Mr. Chairman, on this treaty has done a great 
disservice to the people of the United States. It is giving us 
a false sense of security that it will mean something even if 
it is abided by in terms of the mullah regime which, of course, 
doesn't feel they have to keep their word to people like us.
    Even if they do keep their word on the treaty they can 
easily obtain a nuclear weapon. Thus, during this time period 
all of these years that we have spent negotiating with the 
mullah regime they were playing us for suckers because we have 
refrained from helping those people--those many people in Iran 
who would struggle to rid themselves of the mullah regime's 
oppression.
    There are Hazars. There are Baluch. There are Kurds. There 
are millions of young Persians who hate the oppression of this 
regime but yet because we have focused--we have let them focus 
on this treaty, which won't have any impact on whether or not 
the mullahs can get a nuclear weapon, we have been able--they 
have been able to prevent us from helping those people in their 
own society establish a government that will not want to have a 
nuclear weapon and will stop oppressing their own people.
    This has been a great detriment to the security of the 
United States and the well-being of the West. I am beside 
myself when I hear this because we have spent so much time and 
so much effort in this when, indeed, we could have been helping 
the Baluch, we could have been helping the Hazaris, we could 
have been helping the young Persians, we could have been 
helping the Kurds and we could have rid ourselves of this--of 
this problem.
    Mr. Chairman, we haven't even been able to confront the 
mullah regime in these last few years with their oppression of 
these people in the MEK, who are a democratic alternative to 
the mullah regime. But yet we haven't even been able to get 
ourselves to champion that cause.
    I think this whole issue has been a big loser for the 
United States and I think that it is giving us a false sense of 
security. I would hope we wake up and figure that out. If any 
of the witnesses have a comment on that please go ahead.
    Mr. Rademaker. Mr. Rohrabacher, I will just respond 
briefly. I think if an administration representative were here 
they would respond to your point about possible transfers of 
nuclear weapons by saying you should relax--we don't have to 
worry about that because Iran is a party to the nuclear 
nonproliferation treaty and they are forbidden under the 
nuclear nonproliferation treaty to either produce nuclear 
weapons or buy them, acquire them from someone else.
    Now, of course, the same was true of North Korea back when 
we had the agreed framework with them up until the point where 
they decided they didn't want to be part of the NPT anymore.
    Mr. Rohrabacher. Right.
    Mr. Rademaker. So, you know, I guess it comes down to how 
much you are prepared to rely on treaty commitments and we all 
know treaty commitments are--they can be renounced by treaty--
--
    Mr. Rohrabacher. Let me associate myself with Mr. Smith's 
questioning. If indeed you have a regime that is so brutal to 
their own people--these are their own citizens, people that 
they murder and they brutalize people and they have, of 
course--believe they have a right from God to control this 
territory--any regime like that there is no reason why--I don't 
see why there is any reason for us to believe their word even 
if they write it down on a piece of paper that they are going 
to do something that is beneficial to us and they are going to 
refrain from doing something--from doing something that is 
harmful to us because they have given their word.
    When they murder their own people, why should we--this is 
an act--this whole effort is an act of futility. We should be 
doing what worked with Ronald Reagan and the Soviet Union which 
is aiding those people through what he called the Reagan 
Doctrine who would--who will fight those people who are the 
enemy of freedom around the world.
    And we can help those people internally and we should have 
been doing it all along when it comes to Iran.
    Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, and there is the legislation 
that myself and Mr. Engel have that will overhaul the 
Broadcasting Board of Governors, especially with a focus on 
transmitting information into Iran in the same fashion as was 
done during the 1980s into the former Soviet Union in order to 
give people access to views on political pluralism, on freedom 
of speech, on the real stories of what is happening inside that 
country as well as the rest of the world and that may do a lot.
    At least, it did a lot in Eastern Europe to reach 
audiences. But it is--we need to all work to go on offense in 
order to get that tool of communication so that those inside 
Iran can hear information from Surrogate Free Radio. We now go 
to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Albright, I want to--I would like to start by thanking 
you for the analysis, the, I think, really thoughtful and 
helpful analysis that your organization recently published and 
it is from that analysis that I have a few questions.
    There are a number of concerns that I have. I will just--I 
would like to drill in on a couple, though. The first is 
Fordow. You point out that the deeply-buried Fordow remains in 
operation but the number of centrifuges is reduced by two-
thirds, no uranium for 15 years.
    Both--those are good requirements. The fact that Fordow 
remains open is still a concern. So how do we overcome that 
concern? You point out that molybdenum would contaminate the 
Cascades so that you couldn't enrich uranium afterward but 
other more common isotopes would not contaminate centrifuges so 
that uranium enrichment could be rapidly established.
    And you say unless additional limits are included in the 
agreement Fordow could be expected to reemerge as a substantial 
uranium enrichment plant after year 15 with advanced 
centrifuges 10 to 16 times more capable than the current ones.
    And if bans on producing 20 percent low enriched uranium 
sunset at year 15 then--and this is the point--this heavily 
fortified plant will be capable of producing enough weapons-
grade uranium for a nuclear weapon within a few weeks or enough 
weapons-grade uranium for two weapons in less than a month.
    What can be included in a deal that will help us overcome 
these concerns?
    Mr. Albright. A couple. One is that the limit on the 
production of the enrichment level limit should be permanent--
that they wouldn't produce over 3\1/2\ percent.
    My understanding from talking to people in the negotiations 
is that Iran has every intention to return to producing 20 
percent enriched uranium after that limit sunset. So I think 
that, first of all, is a permanent limit. Another is that the--
--
    Mr. Deutch. Wait. But hold on, Mr. Albright. Let us just--
and it sounds--it certainly sounds reasonable. But they say 
they want to enrich uranium for peaceful purposes. To enrich 
uranium for use in a civil nuclear power program that would be 
enrichment to 3\1/2\ percent.
    Mr. Albright. Correct.
    Mr. Deutch. So they wouldn't need--why would they need 20 
percent enriched uranium? Just for research?
    Mr. Albright. Well, they would argue that they would need 
it for research reactors.
    Mr. Deutch. Is there--and is there any other way for them 
to access the 20 percent enriched uranium? How much would they 
need for research reactors?
    Mr. Albright. Not very much, and they could buy it easily 
and so--and they also--it is not clear when they would build a 
research reactor. So I think it is a reasonable limit to 
maintain at 3\1/2\ percent and if they need more they can--they 
can acquire it internationally.
    Mr. Deutch. And, again, I just--just to be clear because 
there is so much information it is so hard for us to get our 
arms around because there is just so much of it.
    But the key argument that Iran make is that it wants to 
enrich uranium for a peaceful civil nuclear program and its 
focus primarily on nuclear power, and for that they would need 
to enrich to 3\1/2\ percent.
    There is no need to enrich beyond that for their stated 
purpose to their program. Isn't that right?
    Mr. Albright. I believe so. I mean, they argue that they 
want to be able to produce their own fuel. I mean, and in fact 
one of the--but that argument is being undermined by how this 
deal was playing out.
    I mean, Iran is planning to either dilute its enriched 
uranium--it has to go down from about 10 tons of 3\1/2\ percent 
down to 300 kilograms--planning to dilute it or sell it 
overseas.
    And so I think that a lot of these future plans would be at 
a time when Iran would have been able to buy reactors 
internationally and would have depended on those suppliers for 
all its enriched uranium.
    So looking out in the future I would see that Iran would 
have even less of a need for enriched uranium than it does now 
and Iran is shifting in the negotiations to say they have no 
need now.
    In fact, it is one of the ironies of this deal, that you 
have U.S. agreeing to a nuclear program involving fuel cycle 
activities that has no need, and that is expressed by diluting 
down the low enriched uranium back to natural or selling it 
overseas.
    So the idea that there would be even a practical need for 
an enrichment program has more or less disappeared. And so you 
have a program going forward that really has no purpose and so 
why would--and in the future it would also have no purpose and 
therefore it doesn't need to be expanded and certainly doesn't 
need to make 20 percent enriched uranium.
    Mr. Deutch. I understand. Mr. Chairman, just, again, Mr. 
Albright, I want--I just want to be clear and I--and I have 
made that argument in the past.
    There is ample opportunity for Iran to build out a nuclear 
energy program without enriching the uranium. We have had this 
discussion. The chairman has spoken about this at length.
    But in a deal--we are talking about this framework and 
whether we can get to a deal and if a conclusion is drawn that 
all the limitations that are otherwise contained in the deal 
would be beneficial.
    I just want to finish, again, by hammering home this key 
point that you make, that there is--there is no stated purpose 
for Iran to be able to enrich beyond 3\1/2\ percent, there is 
no--nor is there a reason that the P5+1 should acknowledge one. 
Isn't that right?
    Mr. Albright. Yes, I agree.
    Mr. Deutch. Thanks, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    Mr. Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman.
    I am going to take a slightly different tack but it may 
look a little bit like my colleague, Mr. Rohrabacher's, for a 
moment.
    Mr. Rademaker, or Secretary, let us expand the question 
beyond just nuclear for a moment. During your tenure, was Iran 
a terrorist state?
    Mr. Rademaker. Yes.
    Mr. Issa. Did--during your tenure did they in fact export 
destabilizing forces throughout the region, particularly to 
Arab states that were Sunni-run?
    Mr. Rademaker. They were an active supporter of terrorist 
organizations such as Hezbollah and Hamas?
    Mr. Issa. But Hezbollah and Hamas--I was going to get to 
them. So we have got that one checked off. To your knowledge 
today, are they in fact backing the Houthi in Yemen who are 
currently trying to overthrow that government and one in which 
we are part along with the United Nations in saying that that 
is an unlawful act under the U.N. Charter?
    Mr. Rademaker. So far as I know, the answer to that is yes.
    Mr. Issa. Okay. And you probably were not aware--we talked 
just briefly before this began--it appears as though there is 
effectively a stand down order coming from this administration 
to the Saudis and in fact a nuclear aircraft carrier, the 
Theodore Roosevelt, doing circle 8's with binoculars offshore 
of Yemen, not stopping that terrorist organization--excuse me, 
that rebel organization backed by Iran--while in fact Iranian 
resupplies are going to that organization as we speak? Now, are 
you even a little bit aware of that current action as of today?
    Mr. Rademaker. I have read reports about that, yes.
    Mr. Issa. So as much as I appreciate the details of a 
nuclear program that may or may not look good when we see it, 
we have a terrorist state actively supporting Hezbollah, 
including backing Bashar Assad, a regime that this President 
has called for regime change.
    We have Hezbollah continuing to be a threat throughout the 
region. There is a call from Sheik Nasrallah for those 
Hezbollah to go to Yemen to fight on behalf of their Shi'a 
brothers.
    We have Iran shipping resupplies to ensure that Yemen falls 
into Iranian control, Shi'a control and in fact becomes yet 
another threat to Saudi Arabia and other countries in the 
region, all of this going on while we are negotiating.
    Now, I have watched the Cold War since the '60s. I was in 
the military throughout the entire '70s and the '80s as a 
Reservist. I saw Reagan negotiating with the Soviets.
    What I didn't see is this kind of active combat in which 
U.S. military personnel are risking and losing their lives in 
Afghanistan, in Iraq, soon to be in Yemen in all likelihood 
along with our allies.
    This is not a cold war. This is a very hot war in which 
people are dying in these countries including the 200--whatever 
the number now is, 300,000 perhaps, in Syria because of Iranian 
activity.
    What part of this deal--to any of the three of you, what 
part of this deal will in any way reduce the activity of Iran 
in these and other areas? And I only say one thing to caveat 
the question.
    When we give them access quickly to $100 billion or more of 
locked up funds what part of this deal is going to reduce any 
of that activity?
    Mr. Rademaker. I think, Congressman, you know the answer to 
that question. There are no----
    Mr. Issa. But do the American people know the answer, that 
in fact what we are going to do is take a terrorist state that 
is destabilizing, causing Americans to die now as they did when 
they provided advanced IEDs in Iraq where we had soldiers on 
the ground a decade ago?
    What part of this deal is good for America and what part 
are Americans going to die if part of our Iranian deal is not 
in fact to stop this activity?
    Nuclear or no nuclear, what part of a nuclear deal isn't 
going to effectively say to them okay, as long as you play nice 
and abide by this 10-year before you can have a nuke, as long 
as you do that we are going to let you continue to destabilize 
Arab nations, to cause Americans to die, to cause our allies to 
live in fear and to cause our allies to want to beef up their 
militaries both conventionally and nonconventionally? That is 
my question for each of you.
    Mr. Rademaker. Speaking for myself, I didn't come here to 
defend the deal so I am not going to quarrel with----
    Mr. Issa. But your knowledge is a combination of nuclear 
nonproliferation. But it is also the reality that just not 
having a nuke it doesn't solve all problems and ultimately a 
deal to not have a nuke, even if this is a good deal--and I 
don't think it is--doesn't it effectively imply that we will 
not go in and bomb them, intercept their military, et cetera, 
because right now it looks like that is what we are doing.
    It looks like President Obama and the Department of Defense 
is playing careful with Iran while in fact Saudis are dying, 
Yemenis are dying and America is looking impotent off the 
coast.
    Mr. Rademaker. I guess--I know we are out of time but just 
to sort of comment generally, you know, I think, obviously, the 
United States has multiple issues with Iran.
    The nuclear issue is one of them, terrorism. I mean, there 
are half a dozen--the human rights issue that Congressman Smith 
was talking about.
    Mr. Issa. I would just like to get our Embassy back in 
control and not held by them.
    Mr. Rademaker. The--but the concept of this negotiation is 
that these issues can be compartmentalized and we can try and 
solve one of the issues without doing----
    Mr. Issa. So it is your position----
    Mr. Rademaker [continuing]. Without solving others but 
without----
    Mr. Issa. So it is your position we could intercept and if 
necessary sink the weapons that are being sent to Yemen--as we 
speak will continue to negotiate a nuclear disarmament treaty 
with them, or deterrent?
    Mr. Rademaker. That appears to be where the Obama 
administration is in its policies, right. They have a ship that 
is threatening to do that. Meanwhile, their negotiators are 
meeting.
    I guess--but the concept is compartmentalization but, you 
know, especially like when we look at issues such as the cash 
transfer. You know, I think it is fair to ask.
    You know, in trying to solve one of these problems are we 
in fact making other--you know, the problems we have in some of 
the other areas far more serious by, you know, enhancing the 
resources available to the Iranian Government.
    Mr. Issa. Thank you. Mr. Chairman, could we briefly have 
the other members of the panel answer, if they could?
    Chairman Royce. Well, we can do that in writing. But at 
this point we are going to need to go to Mr. David Cicilline of 
Rhode Island. Thank you, Mr. Issa.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
all our witnesses for being here to really discuss a very, very 
important issue and we all, obviously, will have to make an 
assessment about a deal if a final agreement materializes. But 
as is often the case, the devil is in the details and so this 
hearing is helpful in terms of understanding what we should be 
looking for and what we should be pressing for.
    And if there is any--if the public statements made by both 
sides with respect to this framework are accurate there seems 
to be considerable space between the two parties still.
    But I want to just start with Mr. Duelfer. You said that 
the--in your testimony that you thought the sanctions relief 
should be sort of upside down from what it is, that it 
shouldn't be IAEA that has to prove something but there should 
be compliance before any sanctions relief and at least in the 
summary that has been provided by the administration that is 
exactly how it does work because it says that after the IAEA 
has verified Iran has taken all of its key nuclear-related 
steps then sanctions relief is appropriate.
    So you can quarrel about whether or not we can verify that 
but at least the framework for the agreement is the order that 
you suggested, that they first determine that there has been 
compliance and that the actions have been taken by Iran before 
relief can be granted.
    Mr. Duelfer. Sir, what you describe is correct at the front 
end. The initial relief of sanctions they talk about is 
contingent upon the IAEA being able to verify some set of 
standards.
    But the continuing verification that Iran continues to 
abide by its obligations in that period of time it is when the 
leverage is flipped.
    Mr. Cicilline. I see. So you are suggesting that that same 
burden shifting should happen throughout the agreement?
    Mr. Duelfer. I am just observing that the IAEA is going to 
be in a very weak position and we shouldn't kid ourselves about 
that.
    Mr. Cicilline. And Secretary Rademaker, you said in your 
testimony that at the end of 10 or 15 years there are no 
restrictions. At the end of the 10 or 15 years there are both 
enhanced protocols and safeguards and membership as a party to 
the NPT which are in place, which presumably Iran could 
violate.
    But if that were the case, are there any options that are 
not available then that would be available today? In other 
words, the agreement doesn't restrain the United States if 
there is a violation after 10 or 15 years to take whatever 
action the U.S. or the P5+1 thinks is necessary, correct?
    Mr. Rademaker. I think it is a little bit more complicated 
than your question is suggesting. First of all, I mean, there 
are under this agreement some restrictions on, for example----
    Mr. Cicilline. And are permanent?
    Mr. Rademaker. They are permanent. They are on, you know, 
plutonium production, for example, which are, you know, useful 
concessions by the Iranians. I don't mean to downplay that.
    But I do think after 10 or 15 years we give up on--we will 
have surrendered today on our ability to implement then what 
has been the centerpiece of our policy for the last 20 years, 
which is to try and apply economic and political pressure on 
Iran not to be a nuclear weapons threshold state and not to, 
you know, put itself in a position where it can easily at the 
drop of a hat break out of the nuclear nonproliferation treaty 
and deploy dozens of nuclear weapons.
    Today, we have a whole range of sanctions in effect. What 
is being promised in this deal is if they abide by the terms 
for 10 to 15 years the restrictions that are specified, at the 
end of that the vast majority of those restrictions evaporate.
    And especially in the enrichment area they can do whatever 
they want and we are giving up the right to complain about that 
and, you know----
    Mr. Cicilline. Okay. Thank you. I understand. Thank you.
    Mr. Albright, I want to ask you, you mentioned in your 
testimony the challenges of inspections with respect to any 
place, any time--that there seems to be no agreement yet on 
what that inspections regime would look like.
    And so my question is, is any place any time the only 
inspections regime that would work or is there something 
between that and what is currently being discussed that would 
provide the kind of assurances that we need--a notice, some 
quick opportunity to inspect, and when you said IAEA should not 
be the determinant body for violations do you have a 
recommendation of who should be.
    So both can we have an inspections regime different than 
any place any time? Is that the only one that you would 
recommend that could be successful or--and who would do these 
determinations with respect to violations?
    Mr. Albright. Yes. I think at this point in time I don't 
see anything but the--approaching any time but, certainly, 
anywhere and I don't see an option, given the history of the 
inspectors with Iran.
    The additional protocol is just not enough and so, of 
course, how that has worked out is probably going to be 
complicated and there will be some compromises but it has got 
to err or end up much closer to the any time. And, now, in 
terms of the compliance I don't have a good answer.
    I mean, it just--I just think in our work on this, and 
looking at the JPA issues, the IAEA is not a good--we shouldn't 
depend on the IAEA to make that fundamental determination. I 
think in the end the United States is going to have to make it.
    I mean, that is going to be key that there is a process 
where that can be done and Congress has a role in it. The P5+1, 
I think, is going to have to form a commission that is going to 
have to be able to make those kind of determinations.
    But the--but the IAEA is going to have to report and we are 
going to have to expect honest reporting and hard-hitting 
reporting, better than what they have done in the JPA. I mean, 
what they report on the JPA is a minimal amount and they don't 
decide on compliance at all, and they are not even giving the 
information publicly to really determine what is going on.
    Mr. Cicilline. Thank you. I thank you.
    I yield back, Mr. Chairman.
    Chairman Royce. We go now to Mr. Jeff Duncan of South 
Carolina.
    Mr. Duncan. Thank you, Mr. Chairman, and as chairman of the 
Western Hemisphere Subcommittee let us not forget that Iran is 
very active in the Western Hemisphere as well.
    I would like to yield some time to the gentleman from 
California to have his question answered. He was on the right 
track.
    Mr. Issa. I thank the gentleman, and Mr. Albright, I think 
you were--you had your finger on the button but I would like to 
give both of you an opportunity to talk about what $100 billion 
and essentially an agreement not to take extreme action if Iran 
continues to do what it is doing in the other areas in which 
there are some historic sanctions.
    Mr. Albright. Yes. My answer is probably predictable. I 
mean, my group ultimately comes out of the arms control 
community and I was active in the '80s on arms control at other 
organizations.
    I think you do need to keep countries from building nuclear 
weapons and in the Cold War the U.S. had a vital interest in 
limiting the threat posed by Soviet nuclear weapons.
    So I think on its own merits arms control is worth 
pursuing. But we have to recognize that this deal with Iran is 
essentially an arms control agreement and it will have a 
limited duration, and so we should recognize that and work 
around that.
    Mr. Issa. But the question--the question really was, and I 
will paraphrase--I will phrase it this way--during the H. W. 
Bush administration in return for support in the first Gulf 
War, George H. W. Bush essentially gave Lebanon over to the 
Syrians and said, we won't interfere and the Syrians moved in 
and essentially ran that place for years and years until the 
assassination of the late Rafik Hariri.
    But it was Arab on Arab. It was a country and another 
country that had once been part of the same region. Today, 
Iran, a Persian-Shi'a regime with a very different view, is in 
fact dominating Syria, Lebanon, now Yemen--is effectively 
controlling Iraq.
    And I don't want to take any more of Congressman Duncan's 
time. But this deal--the important thing that I hope that I 
will get--and I will give one more chance--what is not in the 
deal is anything that says we are going to aggressively do what 
we need to do, which includes bombing weapons on the ground in 
Iran if a plane is about to take off to supply people from 
Yemen, sinking that ship that is heading in.
    Those questions are questions that will need to be resolved 
if you are certainly going to get the support of most people on 
this dais. If you have got a comment on it I would appreciate 
it because I appreciate the nuclear--I know that is what it is 
about.
    But if we give a green light to Iran and $100 billion we 
know exactly what they will do because for three decades they 
have been doing it. Please.
    Mr. Duelfer. Three quick points. One is in the case of Iraq 
sanctions contained Saddam. They were a tool of containment. In 
this case, as you point out, we are releasing resources to 
Iran.
    Second point is I don't know where this all fits in the 
overall strategy with respect to Iran. I mean, as many people 
have asked questions along that line I have not heard that. I 
mean, yes, we can argue about access and weapons, breakout 
potential and so forth. But where does all fit in the long 
haul?
    Finally, I think, and related to this, you really need to 
hear from Jim Clapper. You need the intelligence community. I 
have been in, you know, the U.N. side. I have been in the 
intelligence side.
    But, you know, weapons inspectors can--you can learn a lot 
from that but there is other sources and methods as well and, 
you know, he is the one who is going to be able to answer the 
question, you know, what level of confidence are we going to 
have that we can see Iran breaking out.
    Mr. Issa. Thank you, and I thank the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. I reclaim my time.
    Mr. Chairman, I just don't think the majority of the 
American people agree with the Obama administration that this--
that this deal will lead to a nuclear bomb. The American people 
don't want to see Iran with a nuclear bomb and regardless of 
whether that is next year, whether that is 10 years or 15 years 
down the road.
    In fact, 367 Members of Congress wrote a final 
comprehensive nuclear agreement must constrain Iran's nuclear 
infrastructure so that Iran has no pathway to a bomb and that 
verifiable constraints on Iran's nuclear program must last for 
decades.
    I stand by that today. That ought to be the position of the 
United States Congress in approving any deal that is brought 
before us by the Obama administration. The problem is, and I 
agree with the New York Times on this--hard for me to say--but 
their analysis said that the one problem is there is two 
versions of this.
    You have got the version that the Obama administration has 
shared with the American people and then you got a version that 
Iran has rolled out of what this framework looks like. I would 
just end with this.
    As recently as April 19th, General Hossein Salami, deputy 
head of the Iranian Revolutionary Guards Corps, reiterated 
this, in his words: ``They,'' meaning the inspectors, meaning 
the U.S. and the U.N., ``they will not even be permitted to 
inspect the most normal military site in their dreams. Visiting 
a military base by a foreign inspector would mean the 
occupation of our land because all of our defense secrets are 
there. Even talking about that subject means national 
humiliation.''
    If that is the position the Iranians are taking in this, 
this whole negotiation of the P5+1 is a farce, with Iran hoping 
to enter the nuclear community and have a bomb. The problem 
with Iran entering the nuclear community is they are unlike any 
other nation that has the bomb to this day.
    They have urged and pledged death to America and death to 
Israel. That make Iran different. That is why it is imperative 
that they do not get a nuclear weapon.
    And with that, Mr. Chairman, I yield back.
    Chairman Royce. Thank you, Mr. Duncan.
    We go now to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    This committee and this body, Congress, has been pretty 
unanimous in, you know, our voice ratcheting up sanctions and 
in fact when we spoke with that voice we accomplished what we 
wanted, which is to make Iran feel the pain and bring them to 
the table.
    Obviously, you know, I commend the administration for 
taking the ball from there and negotiating but, you know, my 
big concerns with the framework are given our history with 
Iran, given Iran's actions in the Middle East and around the 
world, we can't use the phrase ``trust, then verify.''
    We have to start from a place verify, and if you are doing 
what you are supposed to be doing then you will get trust over 
time. And, again, that is my perspective.
    So maybe, Mr. Albright, thinking about it from that 
perspective--verify and then trust--what are the minimal 
verification measures that you believe are needed in a final 
agreement to ensure Iranian compliance?
    Mr. Albright. I think the first thing is I agree with you. 
I mean, it is--this is not about trust because Iran has been so 
noncompliant and noncooperative that it is impossible, and Iran 
has created that.
    I think the IAEA tends to give people the benefit of the 
doubt initially, and then over time becomes more vigilant and 
resistant. So I think the trust is way down the road. Now, in 
terms of minimal things, I think there are two parts to this.
    One is what do you want up front before the key economic 
and financial sanctions are relieved. And so I think there is a 
whole list of things that Iran has to commit to up front--
anywhere anytime inspections would be one. Creating this 
procurement--verified procurement channel is another.
    But I think one of the most important is it has got to 
provide some concrete evidence that it had a nuclear weapons 
program or acceptance of that position and is open enough to 
the IAEA that they can make a preliminary determination that 
yes, it existed in the past and it doesn't exist now.
    Again, they will have--in the longer term they are going to 
have to do even more things that are going to require Iranian 
cooperation.
    But I think in the short term there has to be some 
fundamental answers to whether this program is indeed peaceful 
and part of knowing whether they had a program in the past and 
that Iran, at least if it doesn't have to do a mea culpa, at 
least acknowledges it in some way and it could acknowledge it 
by accepting an IAEA determination that there was indeed a 
program.
    Mr. Bera. And in your sense is there enough in the 
framework at this juncture that allows us, again, going from 
the framework of verify first that gives us unfettered access?
    Mr. Albright. No. No, no. There is too many issues 
unresolved.
    Mr. Bera. Okay.
    Mr. Albright. That it is just impossible to judge. I mean, 
I think--and then also I think we have to realize the--in the 
Washington context I think the administration has been, you 
know, better than I in a battle with Congress on this issue and 
I think they have rounded some edges and exaggerated some of 
the points where maybe parameters agreed but the details really 
matter and there is fundamental disagreements over some of 
these issues that have to be resolved in the negotiations.
    Mr. Bera. Again, I think if we are doing our job as Members 
of Congress and members of the Foreign Affairs Committee this 
does have to be a partnership with the administration and the 
administration does need to work with Congress, from my 
perspective, and it does start with having these tough measures 
of verification.
    I do have real concerns if there is immediate sanction 
relief based on an agreement because an agreement is not 
actually demonstrating what you are going to do. I would like 
to see them demonstrate that accessibility, that unfettered 
access, before you even start considering the sanctions relief.
    Mr. Albright. But that is--at least on the economic and 
financial that is the intention of the administration is that 
these key nuclear steps would have to be dealt with and then 
you could have the sanctions come off. So I think the 
administration's position going into this is a pretty sound 
one. The question is what is it going to get in the end.
    Mr. Bera. It is sound but, you know, again, unless I am 
mistaken I have heard some rumblings that there may be some--
you know, if the framework is agreed to and signed on there may 
be some immediate sanction relief, which worries me.
    Again, agreeing to a framework and actually doing what you 
agreed to are two different things. I want to see them do what 
is--they agreed to, allow us or allow the inspectors unfettered 
access.
    As you said, have some culpability on what their past 
programs were, and then once we have verified at that juncture, 
you know, provide some relief. Again----
    Mr. Albright. I think--sorry, I didn't mean to interrupt.
    Mr. Bera. No, go ahead.
    Mr. Albright. Yes. I think this--I think it has been stated 
here it is like a signing bonus. I mean, Iraq has been getting 
money--some of its assets relieved all along in the interim 
deal.
    So I think that is--this signing bonus is a continuation of 
that. It is not the sanctions coming off, and so one should 
argue about that for sure. I mean, it is a lot of money and it 
is a new twist to arms control in a sense to have--you know, 
have big payoffs for signing an arms control agreement.
    But in terms of the sanctions themselves, Iran has to meet 
conditions under the U.S. position and my understanding is Iran 
is obviously balking at that.
    But the U.S. position and the P5+1 position remains firm 
that those conditions have to be satisfied before there will be 
sanctions relief.
    Mr. Bera. And I would urge that the administration take a 
tough stance here----
    Mr. Albright. Yes.
    Mr. Bera [continuing]. On that and not back down from that. 
I yield my time back.
    Chairman Royce. Okay. We go to Mr. Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman, and I thank our 
witnesses for being here today.
    First, with regards to a treaty, I am someone who believes 
that the President is negotiating a treaty it should be treated 
as such.
    I believe our Founding Fathers would agree with that. The 
President would try to argue precedents. We have the 
Constitution of the United States which I believe has a process 
in place that should be respected.
    As far as sanctions, the President talks about snap back. 
For a sanction, that may take several years to put into place. 
I think in reality it is Fantasyland if you think you can just 
click your heels back together and sanctions that take that 
long to put into place if Iran has a violation that all of a 
sudden they are just going to be snapped back.
    And I think that my constituents, the American people, are 
starting to catch on to that. It is important to understand 
where we are right now.
    The President, just 3 weeks ago, he announces a framework 
agreement. He puts out a fact sheet. Within 24 hours, the 
Iranian foreign minister is on his official Twitter feed 
calling it just a spin. The ayatollah is on the streets 
chanting ``Death to America.''
    In order to have an agreement, both sides have to agree to 
material terms. We are talking about a framework as if the 
Iranians actually agree to it.
    I think that one of--one thing that might have been agreed 
to 3 weeks ago at the table is that both sides were agreeing to 
go back to the their home countries and spin wherever they 
thought we were at that moment--this moment in these talks to 
whatever best serves their own domestic politics.
    I have concern about critical components where if there is 
no agreement that it can be worded in a broad vague way for 
each side to interpret the agreement differently. And we may be 
presented an agreement in English that may not be accurately 
translated.
    So there are multiple levels to the complication. So we may 
be interpreting an agreement that the Iranians interpret 
completely differently. We already know what the President is 
going to say.
    If he reaches an agreement, no matter what the agreement 
says--he may say this agreement is good for the United States, 
good for our allies and good for the safety of the entire 
world, he may say compliance will be certified by the 
International Atomic Energy Agency.
    That sounds familiar? Those were Bill Clinton's words in 
1994, October 18th, announcing a nuclear agreement with North 
Korea and we all know how that turned out. What else will he 
say?
    He will tell us this is a good deal that prevents Iran from 
having a nuclear weapon. Well, what isn't included in this 
deal? We aren't talking about Iran, state sponsors of 
terrorism.
    We are not talking about their work to overthrow foreign 
governments, pledging to erase Israel from the map, chanting 
``Death to America.'' This doesn't include their development of 
ICBMs or their unjustly holding and imprisoning United States 
citizens.
    Right now, a lot of people--a lot of our constituents are 
watching the playoffs. Basketball is going on and hockey. These 
are seven-game series. The first team that wins four wins the 
series and you move on.
    The President is--I mean, this is like the number-one 
seed--the United States of America--we are going up against a 
mediocre Division II basketball team and we decide to give up 
our first three games.
    We are now trailing in the fourth game. The President 
should call a time out. He should take a walk, take a breath 
and come back with a stronger hand.
    This is the United States of America. There is no reason 
that we should be playing as if these are our equals and it is 
not that hard for him to do that.
    My question for our witnesses here this morning is this. 
There was some chatter about legislation and one proposal that 
these talks require Iran to recognize Israel's right to exist.
    With the ayatollah in the streets chanting death to America 
while these negotiations are going on, blowing up mock U.S. 
warships and everything else they are doing wrong, should these 
talks include Iran recognizing America's right to exist?
    Mr. Rademaker. I mean, I have not heard that they dispute 
America's right to exist. So, you know, I don't know that that 
needs to be established as a precondition. You know, on the 
question----
    Mr. Zeldin. With all due respect, they are in the streets 
chanting ``Death to America.''
    Mr. Rademaker. Right.
    Mr. Zeldin. I mean, they are--I mean, they are blocking--
blowing up our warships. I mean, there is plenty of evidence 
that they are not recognizing our right to exist. When they are 
chanting ``Death to America'' that is pretty much--when it is 
coming from the ayatollah indicating that they are not 
recognizing our right to exist.
    Mr. Rademaker. This goes back to the issue of 
compartmentalization that we discussed with Congressman Issa, 
that--I mean, the philosophy of this negotiation is we can, you 
know, okay, set aside the issue of Israel, set aside the 
threats against America over political issues.
    We are just going to focus on the nuclear issue and try and 
solve that and hope that in solving that we don't compound the 
problems in these other compartments. It is a legitimate 
question whether that is doable.
    On your point about the--you raised the question about the 
treaty, whether this is a treaty, and I had spoken to that 
earlier and let me just say, you know, the political reality is 
the President is not going to submit this agreement to 
congressional review unless Congress passes a law requiring him 
to do so. And that is what they are working on over in the 
Senate and hopefully that is what this committee will be able 
to work on at some point in the future. But, you know, absent 
the enactment of legislation I don't think you are going to 
have any meaningful congressional review at all.
    Mr. Zeldin. And just with the sake for of my time because 
it is expiring, I don't believe that Congress has to because 
you just hold out the Constitution of the United States. This 
is a treaty, in my opinion.
    This is a treaty. We don't have to pass something that 
requires the President to do that. Just because the President 
is going to play by his own set of rules and he is going to get 
played at the negotiating table doesn't mean that we and I need 
to play along--that my colleagues need to play along as well.
    I yield back the balance of my time.
    Chairman Royce. We go now to Gerry Connolly of Virginia.
    Mr. Connolly. Thank you so much, Mr. Chairman, and welcome 
to our panel.
    Mr. Rademaker, does Congress get to declare what is and it 
not a formal treaty pursuant to the Constitution, in your 
experience?
    Mr. Rademaker. The Congress can express opinions but, you 
know, there is a formal process that involves the submission by 
the President----
    Mr. Connolly. Correct.
    Mr. Rademaker [continuing]. Of the text to the Senate.
    Mr. Connolly. Correct.
    Mr. Rademaker. And if he doesn't do that there is nothing 
before the Senate to reject.
    Mr. Connolly. Correct. Thank you. So my friend from New 
York can decide on his basis that something constitutes a 
treaty but actually the Constitution is kind of vague about 
that. I mean, we don't have a formal definition.
    Mr. Rademaker. Yes, and can I just add?
    Mr. Connolly. Yes, sure.
    Mr. Rademaker. So then the in between thing that Congress 
can do is it can sue the President.
    Mr. Connolly. Of course.
    Mr. Rademaker. And it happens all the time and pretty 
consistently what the courts say is, you know----
    Mr. Connolly. You work it out.
    Mr. Rademaker [continuing]. It is interesting but Congress 
needs to stand up for itself.
    Mr. Connolly. Correct.
    Mr. Rademaker. Don't ask us to do your work for you and so 
that is--then you come back to the question of legislation.
    Mr. Connolly. Now, with respect to that issue, are there in 
fact lots of executive agreements with foreign countries not 
formally ratified by the U.S. Senate?
    Mr. Rademaker. Yes.
    Mr. Connolly. Lots?
    Mr. Rademaker. Many, yes.
    Mr. Connolly. Many?
    Mr. Rademaker. There is a formal--you know, there is a law 
that requires executive agreements to be transmitted to 
Congress and, you know, Case-Zablocki Act and every few 
months----
    Mr. Connolly. Right.
    Mr. Rademaker [continuing]. We will get a long list of 
treaties or--I am sorry, of executive agreements with their 
text.
    Mr. Connolly. Correct. So it is hardly unprecedented. We 
might all express an opinion about the desirability of it being 
submitted to us for formal approval as if it were a treaty. But 
that is a different matter.
    So to assert that it is violation of the Constitution is in 
fact on its face false because the Constitution is silent as to 
what constitutes a treaty and I think--I thank you for your 
answer.
    It really requires the President to take an action to 
submit as if it were a treaty to trigger that provision and I 
might even agree with my colleague that it ought to be 
considered as a treaty but that is, frankly, immaterial and it 
is not a violation of the Constitution, though we might say 
otherwise.
    My colleague--another one of my colleagues said a little 
earlier in this hearing, ``The President is doing the U.S. a 
great disservice engaging in negotiations.'' Mr. Albright, is 
it your position that be are--we have made a mistake just to 
even engage with them?
    Mr. Albright. No.
    Mr. Connolly. Mr. Rademaker?
    Mr. Rademaker. No. I don't think that is a mistake.
    Mr. Connolly. Mr. Duelfer?
    Mr. Duelfer. Well, I don't how long you continue in them if 
you don't--if you are not getting what you want. But no, to 
talk to your enemies makes perfect sense.
    Mr. Connolly. Okay. Thank you.
    One of the criticisms, and I am not unsympathetic to it, is 
that the agreement in front of us or the framework of the 
agreement that will be in front of us does not address a whole 
panoply of issues we care about with respect to Iran.
    So everything from human rights violations to intrusive 
insurgent support for elements we don't support in the region 
to internal democratic issues to freedom of the press, freedom 
of expression, on and on.
    Is it your position, Mr. Albright, that a nuclear agreement 
ought to be all inclusive with respect to bilateral issues?
    Mr. Albright. No.
    Mr. Connolly. Mr. Rademaker?
    Mr. Rademaker. I think as a practical matter it will be 
impossible to resolve all issues at one time in one 
negotiation.
    Mr. Connolly. And yet, I would just say to you I couldn't 
agree with you more. I think in an ideal world I would love to 
work out all those issues.
    But right now the big issue on the table is we don't want a 
nuclear Iran and we got to start somewhere. We haven't talked 
to each other, virtually, since 1979 and well, it is a matter 
of opinion whether we are better off with this agreement than 
no agreement and that is a perfectly legitimate subject for 
debate.
    But the idea that it ought to be all inclusive, which seems 
to be some of the criticism one hears from the critics, I 
think, you know, in an ideal world, yes. In a practical world, 
no. I mean, we can't--I wish we could do that but we can't.
    Mr. Duelfer, would you agree or not?
    Mr. Duelfer. Well, I just--I haven't heard what the overall 
Iran strategy is and I think that is--you know, if somebody 
could articulate that well I think that would benefit everyone 
including the nuclear negotiations.
    Mr. Connolly. Do--and final question because I am going to 
run out of time, the interim agreement that is still operative 
right now are we better off with that or would it have been 
better not to enter into it? Mr. Albright, Mr. Rademaker, Mr. 
Duelfer? And I yield back.
    Mr. Albright. No. It was a good--I think it was a good way 
to start the negotiations and grab some quick restraints that 
deal with the things that bother us most and then--and then 
move on to the long-term negotiation.
    Mr. Connolly. Thank you. Mr. Rademaker.
    Mr. Rademaker. I, largely, agree with that although I think 
I would add that we would be better off leaving in place the 
interim agreement than entering into what seems to be about to 
be signed onto.
    Mr. Connolly. Mr. Duelfer?
    Mr. Duelfer. I think the end deal drives everything.
    Mr. Connolly. I can't hear you.
    Mr. Duelfer. The end deal will drive everything.
    Mr. Connolly. Yes. But I mean--but if we hadn't--but 
nonetheless are we better off with this interim agreement than 
if it had not come into existence?
    Mr. Duelfer. In other words, the option would have been 
walking away and assuming that sanctions would stay on?
    Mr. Connolly. Yes.
    Mr. Duelfer. It is a tough call.
    Mr. Connolly. Tough call. And finally, Mr. Chairman, before 
I yield back I just want to note--we haven't had a chance to 
get into this but that is another question. How do we hold 
together the coalition to enforce sanctions if we walk away 
from this agreement?
    I have grave reservations about whether we can hold P5+1 
together. We may want to keep the sanctions and even double 
down on them. I am not sure our partners would. Mr. Chairman, 
thank you.
    Chairman Royce. We go now--thank you very much, Mr. 
Connolly.
    We go now to Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you, gentlemen.
    I want to start with a quote from John Kerry in the 
Washington Post. It says,

        ``If Iran's nuclear program is truly peaceful it is not 
        a hard proposition to prove. The only reasonable 
        conclusion for its stonewalling of international 
        investigators is that Tehran does not--does indeed have 
        much to hide.''

    And then President Eisenhower back in the late '50s, early 
'60s said Atoms for Peace program, one lesson is clear--
civilian nuclear programs flourish only through cooperation and 
openness. Secrecy and isolation are typically signs of a 
nuclear weapons program.
    And I think it is very evident that they have been very--
not willing to be forthright and allow the inspectors in there, 
and then my question is this. Without the sanctions, in your 
opinion would Iran have weapons now or eventually? Yes, all 
three of you real quick.
    Mr. Albright. I think they would have had them by now 
without all the----
    Mr. Yoho. Are we all in agreement with that?
    Mr. Albright [continuing]. Negotiations and sanctions. I 
think the negotiations by the Europeans in the early 2000----
    Mr. Yoho. Okay. I just--I need a quick answer here.
    Mr. Duelfer. Yes.
    Mr. Yoho. Mr. Duelfer? All right. With the sanctions in 
place, in your opinion would Iran have nuclear weapons 
eventually?
    Mr. Rademaker. I think they have put themselves on a 
trajectory where--yes.
    Mr. Yoho. I have sat here for 2 years and I have heard 
experts like you--not saying you--saying that Iran was 6 months 
to 1 year from having enough fissile material for five to six 
weapons. So with the sanctions in place we have already moved 
to this direction.
    And then my last question for this is with the U.S.-Iranian 
nuclear agreement will Iran have nuclear weapons eventually?
    Mr. Albright. I don't--I think it is an open question. It 
is a challenge. I mean, this isn't over when there is a deal. 
It is going to require lots of work.
    Mr. Yoho. But we know the sanctions--we know the sanctions 
go away in 5 to 10 to 15 years because I have heard all kinds 
of numbers. How about you, Mr. Rademaker?
    Mr. Rademaker. I think we don't know what their ultimate 
intentions are but as I stated in my prepared testimony this 
agreement puts them on the 1-inch line so that it is purely a 
decision on their part whether--you know, if they decide they 
will almost automatically have them.
    Mr. Yoho. Mr. Duelfer, what is your----
    Mr. Duelfer. If they want one they can have one.
    Mr. Yoho. And the point I want to bring out here, if we had 
no sanctions they would have one. If we had sanctions and they 
had been working here why else would you have the secret--all 
the secrecy that they have done, all the development that they 
have done?
    They have moved in this direction and the experts again 
have told me they are going to have them, and then with this 
agreement we are pretty much saying you can have one in 10 to 
15 years. And what I don't hear is why are we not preparing for 
the day that they have one.
    We are spending and wasting time trying to prevent that 
which we can't instead of preparing that which will be and I 
think the American people and our national security would be 
better served if our focus was on the day that Iran has a 
nuclear weapon and talk about the responsibility of a nation 
that has nuclear weapons.
    I mean, I can't think of a more rogue nation than North 
Korea and I think our focus in time should be spent for that 
day because they are going to get it. And I would hope they 
don't but, again, I see them getting that and, you know, the 
whole idea--and Mr. Zeldin brought this up--of the snap back. I 
think that is a joke because if I were to ask you to take us 
through a snap back process when that times comes, when you 
look at what Iran has done over the course of the last 30 
years--lie, deceit, deception--we know that snap back is going 
to have to be put in place.
    How long of a process would that be to say all right, you 
have broken the--you have violated the agreement. How long of a 
process would that be for snap backs to go in place to stop 
their development?
    Mr. Rademaker. I think that will totally depend on the 
deal--I am sorry, on the terms that are worked out. But let me 
just say to the extent we are talking about U.N. sanctions, I 
will be astonished if the mechanism doesn't require an 
affirmative vote of the U.N. Security Council to implement the 
snap back.
    Mr. Yoho. I mean, we are talking months if not years to 
even say all right, they broke that.
    Mr. Rademaker. And it is also requiring, among others, the 
consent of Russia and, you know, as a country that is under 
U.S. sanctions today their appetite for imposing sanctions on 
others is, I think, much diminished from what it was in the 
past.
    Mr. Yoho. With the sanctions already in place you got 
continued illicit procurement. China, the UAE, Turkey are 
supplying with stuff they are not even supposed to be buying. 
So to think that they are going to abide by an agreement I 
think is a joke and that our nation would be better served to 
prepare for that day and change our policy in that direction.
    I yield back and I thank you for your time.
    Chairman Royce. We go now to Mr. Alan Lowenthal of 
California.
    Mr. Lowenthal. Thank you, Mr. Chairman, and I thank the 
witnesses for your testimony. I have learned a lot.
    I would like to kind of zero in a little bit more in depth 
in terms of what really the purpose is. We are not--I am not 
concerned from the panelists about the contents of the 
framework of the final deal but of the verification process--
can we verify.
    And so my first question is the inspection is being done 
primarily by the IAEA. Is that not correct? The question is do 
they have the resources to do what we are going to be asking 
them to do and who will provide these additional resources and 
if it is not in terms of the inspection how would you verify?
    I don't want to hear about whether it is a good deal or 
not. The question is how would you propose to verify that the 
Iranians are not complying with the deal?
    Can the--first of all, can the IAEA do it and if not what 
resources are they going to need to do it and who is going to 
provide those resources?
    Mr. Albright. Yes. They are certainly going to need a lot 
of resources and sometimes the inspection requirements aren't 
rational and so but they still would have to do them and it 
would cost them money.
    So the member states of the IAEA including the United 
States are going to have to provide money.
    Mr. Lowenthal. Has that been provided already?
    Mr. Albright. I think it would be. But it is--they are 
getting more money to implement the monitoring of the interim 
deal. But I think, more importantly, is they are going to have 
to get some clear mandates of what they can and can't do and in 
this case that they are going to be able to do more and that is 
going to have to come probably from the U.N. Security Council. 
It will have to have support from the member states.
    Mr. Lowenthal. Well, what mandates would you give?
    Mr. Albright. One is I would give a much stronger mandate 
to look at Iran's illicit procurement and to verify that they 
are not--they are not buying things illegally that could be 
used in a covert nuclear program and that there is--they are 
limited in doing that and Russia, in the negotiations, has 
opposed giving the IAEA more mandates.
    But I think that needs to be overturned or resisted by the 
United States and have the IAEA being able to do more. And a 
lot of it is it bolster their ability to investigate.
    I mean, finally, the U.N. experience in Iraq in the '90s 
was to create investigators, not verifiers, in a sense--that 
you have a more aggressive, more analytical capabilities to be 
able to ferret out covert activities.
    And while, I think, Charles said it right they couldn't 
show that the compliance was there it sure made it very--it 
created an incredible deterrent against cheating.
    Mr. Lowenthal. Mr. Duelfer, you were the one that said that 
in--you know, the difficulty in the--what would you do now? Let 
us say we are--we kind of come to agreement on kind of 
ultimately what he agreement will be, how are we going to 
verify it?
    Mr. Duelfer. The way we thought about this when we were 
designing and monitoring a system for Iraq was sort of in the 
notion of a simple equation. You have designed some array of 
sensors, visits, overhead surveillance--an array of things 
which gives you some kind of a probability of detection.
    But you can't look at that independently of other elements, 
I mean, because if the goal is to deter Iran from going down 
the nuclear weapons path then the weapons inspectors only 
control one part of that equation.
    The other part of the equation is the consequences and in 
the case of Iraq and in the case of what we are talking here 
presumably that is largely going to be the Security Council.
    So there has to be, in Iran's assessment of the 
circumstances, they are going to make a judgment well, am I 
going to get caught--what is the probability of me getting 
caught and what happens to me if I do get caught.
    It is that part of the equation which is also important and 
to look at one separate from the other, you know----
    Mr. Lowenthal. Got it. I got it, and you learn that in 
terms of that it is not just the inspection but the 
consequences. I want to get back to that.
    Is there a difference between trying to inspect and finding 
out whether you get caught or not on looking for weapons of 
mass destruction and in this case the development of a nuclear 
bomb? Is that the same process, same risks involved or same 
difficulties? It seems to me that they are different issues.
    Mr. Duelfer. What the administration has designed is the 
system aimed at what they call the nuclear supply chain, which, 
to me, is defining the problem kind of narrowly.
    When we were designing inspection systems we had--we needed 
a baseline. We wanted to know in detail what was the 
infrastructure that existed before we started so we could 
calculate where the deviations were.
    This is why when people talk about the possible military 
dimensions that is a critical point. You know, if John Kerry 
can't get up and stand and say exactly where the Iranians were 
on weaponization then, you know, we don't know if we are going 
forwards or backwards. You need that kind of a baseline for 
designing an inspection system.
    Mr. Lowenthal. I know I have to yield back because I have 
used my time. I am just wondering, Mr. Rademaker, do you have 
anything else to add in terms of the verification--the actual 
process itself?
    Mr. Rademaker. Well, I think maybe just to echo what Mr. 
Albright said. You know, I think for verification to be 
effective it is a question of both the authority and the 
resources and hopefully there will be ample authority and ample 
resources.
    But whether there is sufficient authority depends 
ultimately on the details of the agreement. If there was not--
--
    Mr. Lowenthal. Do you believe if it was sufficient--if 
there was sufficient authority and sufficient resources that 
this would be appropriate?
    Mr. Rademaker. What would be appropriate?
    Mr. Lowenthal. Going down this road of using the--you know, 
this kind of inspection regime, that this can work?
    Mr. Rademaker. Well, I am in favor of the most robust 
inspection and verification mechanism that can be achieved. But 
the point I wanted to make was that even if the authority is, 
in the judgment of myself and every other expert inadequate, 
that is still not a reason not to provide the resources 
necessary to make the best use of those authorities and so 
hopefully both the supporters and the critics of this deal will 
support making the resources available to do the best job 
possible of verifying it.
    Mr. Lowenthal. Thank you, and I yield back.
    Chairman Royce. Thank you.
    We are going to go to Mr. Scott Perry of Pennsylvania 
followed by Lois Frankel of Florida.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, gentlemen. 
Just curious, Mr. Rademaker, of the executive agreements that 
you have cited--there are many--are there any that provide for 
nuclear nonproliferation?
    Mr. Rademaker. Truthfully, I think the answer to that is 
probably yes. I mean, the--well, yes. I mean, first of all, the 
agreement with North Korea--the so-called agreed framework--was 
not submitted to Congress for approval. But, you know, I think 
we have----
    Mr. Perry. And something as it is, right? I mean----
    Mr. Rademaker [continuing]. Similar agreements with the 
IAEA about inspections and those are not submitted as treaties. 
But, you know, I didn't--I didn't a chance to make the 
fundamental point which is, you know, the President triggers 
the treaty process with his decision whether or not to submit 
something as a treaty to the Senate.
    If he chooses not to, you know, he can use what authority 
he has to try and implement that. But one thing is clear--that 
agreement does not achieve the force of law. I mean, this was 
the subject of the Tom Cotton letter in the Senate.
    Mr. Perry. Sure. And it seems to me that, and it is obvious 
to me and I think many of the American people that this is--
this is orchestrated by the administration specifically and 
expressly because getting the two-thirds approval of the Senate 
was--it would be nearly impossible and because this is a 
horrible deal for the region, for Israel, for America and for 
the world.
    That having been said, it seems to me that the whole 
thing--I am going to call it a treaty because that is what it 
is to me, it binds the American people--the whole treaty is 
predicated on inspection and verification.
    And with that having been said, just to set the framework 
or the context up, Iran is party to the NPT, right? You would 
agree with that, right? They are party to it, and in so they 
also in signing it they have signed or agreed to the safeguards 
agreement as a component of being signatory to the NPT, 
correct?
    Mr. Rademaker. Yes.
    Mr. Perry. That is correct. So and have they already 
violated the safeguards agreement that the themselves signed?
    Mr. Rademaker. Absolutely.
    Mr. Perry. They absolutely have. So that kind of sets the 
context. Now, of who we are dealing with and past performance 
we keep on hearing that they can--the administration can 
compartmentalize, telling us that somehow that we are dealing 
with a convicted murderer, a rapist, someone that has been 
involved in human trafficking but right now we are going to 
discuss petty burglary and just disavow those other things even 
though they are on the table. That is not important. We can 
handle this.
    Let me ask you this, Mr. Albright. Who provides 
intelligence for these suspected sites? Who provides the 
intelligence for the IAEA?
    Mr. Albright. Member states provide information and so a 
member state could decide to provide the information----
    Mr. Perry. Or not.
    Mr. Albright [continuing]. On suspect sites.
    Mr. Perry. But the IAEA needs to get its information 
somewhere. It doesn't have an intelligence wing that is out 
looking at the satellite photos of Iran?
    Mr. Albright. No, it looks--it has--it looks at satellite 
photos. It uses what they would call open sources.
    Mr. Perry. Oh, it is open. I can be looking with Google 
Earth, right?
    Mr. Albright. That is right.
    Mr. Perry. Okay. Yes.
    Mr. Albright. They also--but they are also in the country 
and so they can see indicators of violations.
    Mr. Perry. If they are freely roaming the country do they--
--
    Mr. Albright. Well, no, just even in interacting----
    Mr. Perry. Sure.
    Mr. Albright [continuing]. In their normal verification 
exercises under the NPT. They also--the NPT does require 
declarations and they can--and they scrutinize the declarations 
for inconsistencies and in fact some of the new arrangements 
under the deal would be that there be much broader declarations 
that then would provide even more ability to look for 
inconsistencies.
    Mr. Perry. Let me ask you this. Are the U.S. capabilities 
to locate undeclared sites adequate?
    Mr. Albright. I am not--I can't independently just that. I 
mean, some of the studies have said no. I mean, but at the same 
time----
    Mr. Perry. That is--that is the answer I get is no.
    Mr. Albright [continuing]. But they found--in conjunction 
with allies found Fordow----
    Mr. Perry. Right.
    Mr. Albright [continuing]. Found Natanz, found----
    Mr. Perry. But they are being hidden.
    Mr. Albright [continuing]. Physics research center.
    Mr. Perry. Actively being hidden. They are not being 
offered up to us. We have to go find them and that is who we 
are dealing with.
    Mr. Albright. Right.
    Mr. Perry. Let me ask you, Iran has refused to allow IAEA 
inspectors from the United States, Britain and France in the 
past because, of course, we are all spies. Is this going to--is 
that circumstance going to change under this agreement, as far 
as you know?
    Mr. Albright. It should change.
    Mr. Perry. It should, but is it going to, as far as you 
know?
    Mr. Albright. Well, if once Iran ratifies additional 
protocol I would imagine that at least British inspectors could 
go back in and----
    Mr. Perry. Oh, well, that is good to know.
    Mr. Albright [continuing]. But on the U.S. side, I mean, it 
is anyone's guess. Anyone's guess.
    Mr. Perry. We are dealing with nuclear proliferation and 
potentially nuclear war so I would rather not guess. Let me ask 
you this.
    The IAEA--you have all professed that it is not the best 
vehicle for determining violations necessarily from a political 
context and so it would go to the U.N. Security Council at 
least is one of the possible avenues, right? Which we have 
already alluded to including China and Russia. Russia is now 
selling S-300 missiles to protect these sites.
    Is this something that the American people should feel 
comfortable with knowing that Russia--the likes of Russia and 
China will be determining whether Iran is in violation of a 
treaty that allows them to produce nuclear material, 
potentially nuclear weapons?
    Mr. Albright. I think the U.S. has to have it very clearly 
recorded in this deal that it can decide on compliance and 
noncompliance. I mean, you want others--also you want some kind 
of authority created in this deal that could also decide. You 
don't want it just to be the Security Council and you don't 
want it just to be the IAEA.
    Mr. Perry. I concur. Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Okay. Lois Frankel, Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    First, I just--I want to just state what is obvious to all 
of us here, which is that Iran should not be allowed to get a 
nuclear weapon. They are the leading state sponsor of terror.
    They remain the most destabilized actor in the region and 
nuclear weapons would allow them to play an even more dangerous 
role and spark a nuclear proliferation throughout the Middle 
East. So I think we all agree on that.
    Do you all agree that a negotiated agreement would be a 
better solution than a military action?
    Mr. Albright. Yes.
    Mr. Rademaker. Yes, although I would add to that, you know, 
an acceptable negotiation. I mean, we could always negotiate 
that they can have everything they want but----
    Ms. Frankel. Some say a good agreement----
    Mr. Albright. No, I would agree and----
    Ms. Frankel. Okay. I understand that, yes. Mr. Duelfer?
    Mr. Duelfer. Well, you know, I am a little bit reluctant to 
say because, you know, a negotiated agreement that gives you a 
false sense of confidence could be worse than all the horror 
that goes with a military strike.
    Ms. Frankel. Okay. So now, let me now take you back 1\1/2\ 
years ago, which is when we entered into the Joint Plan of 
Action.
    I believe that--I forget which one of you said that under 
the--that under what you see is the parameters of a new 
agreement, which we don't know the details yet but that--I 
think you said that Iran would be on the 1-inch line under that 
agreement to have a nuclear weapon.
    So I want to take you back 1\1/2\ years ago. Tell me what 
line were we on then. I mean, how--had we not--had we not had 
the Joint Plan of Action how quickly was Iran or how close on 
that inch line or foot line was Iran to not only developing a 
nuclear weapon but having the ability to deliver it?
    Mr. Albright. I think--it is hard for me to use a football 
analogy but the breakout times----
    Ms. Frankel. All right. Well, use whatever one you want.
    Mr. Albright. Yes, the breakout times were shrinking 
dangerously. I think our estimate at that time, given the large 
stock and growing stock of near 20 percent was about a month 
from being able to have enough weapon-grade uranium for a bomb 
if it chose to breakout.
    Implementing the JPA pushed that back to about 2 months and 
so that was a valuable gain, and their inefficiencies in their 
centrifuges would probably buy you--maybe make an estimate of 2 
to 3 months.
    Ms. Frankel. And then what about being able to actually 
deliver it?
    Mr. Albright. And I should add too they were headed--and 
this is what Mr. Rademaker is referring to--by the--I think we 
were estimating by--based on their plans to deploy centrifuges 
but the summer of 2014 the breakout times would have reduced 
down toward a week or two.
    And so the--now, in terms of their deliverability, I there 
is two parts to that. One is a crude device that can be used to 
test underground or delivered by crude methods. I think you 
would have to conclude that within 6 months or so they could--
they could cobble together something.
    If they wanted to put it on a Shahab-3 missile I think I 
would refer to the IAEA findings in their internal reports--
that they still had a ways to go and I think U.S. estimates are 
probably greater than 1 year.
    Ms. Frankel. But it could have and may have, would you 
agree, sparked a proliferation had they--had they enough 
material to create a nuclear weapon, that that could have 
sparked a proliferation in the Middle East?
    Mr. Albright. It certainly could. You know, unfortunately, 
one of the things that this deal is sparking, though, is 
spreading of nuclear technology in the Middle East and in fact 
it is--there is some very good things in this deal and there is 
some good norms.
    One of the norms that isn't good and we are going to have 
to wrestle with is that you can an uranium enrichment program 
with zero purpose and it can be in the hands of a U.S. 
adversary. So how do you say no to Saudi Arabia?
    Mr. Rademaker. Could I just interject? I am the one 
responsible for this football analogy.
    Ms. Frankel. All right. Okay.
    Mr. Rademaker. And, you know, Dave was talking about how 
the football has moved up and down the field.
    Ms. Frankel. Right.
    Mr. Rademaker. But let me just say, you know, where the 
football has been and where it is now, wherever it is on the 
football field the one thing that is clear is that today 
their--Iran's nuclear program is illegitimate.
    Its very existence violates U.N. Security Council mandates. 
We are entitled to sanction it. If it came to the point where 
we felt we needed to use military force against it we would be 
able to point to U.N. Security Council resolutions and say this 
is an illegitimate program--we had no choice but to take it 
out.
    One of the critical things this agreement does is it is 
going to legitimize the program and one of my--my point about 
them being on the 1-inch line--you know, I guess I didn't 
emphasize this--they are going to be on the 1-inch line and it 
is going to be legitimate.
    Ms. Frankel. Okay.
    Mr. Rademaker. We are going to have no right to complain 
about it.
    Ms. Frankel. Is it on the--is it on the 1-inch line or you 
say it is going to be on the 1-inch line in 10 years?
    Mr. Rademaker. The latter.
    Ms. Frankel. Okay.
    Mr. Rademaker. But today, wherever the football is on the 
field it is--it is an illegitimate program. It is subject to--
you know, its existence is in violation of U.N. Security 
Council mandates and that is not going to be the case at the 
end of this deal or really on day one of this deal, you know, 
because the Security Council will act very quickly to repeal 
those resolutions that forbade Iran to do this.
    Ms. Frankel. All right. Well, may I ask--Mr. Chair, may I 
ask one more question? I think I am the--as usual, I am, like, 
one of the last people standing here, or sitting here.
    I am trying to--I guess I am going to try to get back to 
Mr. Connolly's question because--I mean, more specific because 
he asked whether or not by entering the Joint Plan of Action we 
actually gained anything and so I think, if I am hearing what 
you said, that before the Joint Action Plan they were maybe a 
month from breakout so----
    Mr. Albright. It could breakout--could break out in a 
month.
    Ms. Frankel. It could break out in a month. So at least we 
know had we--if there was no Joint Action Plan they could have 
a nuclear weapon today. That we would agree on, correct? So----
    Mr. Albright. Well, maybe not. I mean, again, U.S. policies 
prevent Iran from getting--U.S. policy has been to prevent Iran 
from getting a nuclear weapon.
    Ms. Frankel. Right. But----
    Mr. Albright. If they move to get it, one would have 
expected the Obama administration to try to stop them.
    Ms. Frankel. Okay. So maybe with a military action or 
whatever.
    Mr. Albright. Whatever.
    Ms. Frankel. With all the options on the table. So just 
right now, with the Joint Action Plan in place, how would you 
compare--is the breakout time greater or less than when we 
started?
    Mr. Albright. It is greater and so it is 2 to 3 months.
    Ms. Frankel. Okay. So we went from a month to 2 to 3 
months?
    Mr. Albright. And that is--and that was a valuable gain and 
it also reversed the trend, which was to go down toward 1 week.
    Ms. Frankel. All right. All right. Well, I hope--I thank 
you for your time. You know what? Mr. Sherman said, I think, 
what we are dealing with what is--what is the best of the worst 
solutions here and maybe somebody will come up with the best of 
the worst, I hope.
    Thank you. Thank you, Mr. Chair.
    Chairman Royce. Thank you.
    Now we go to Mark Meadows from North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you to each of 
you for your testimony today.
    My staff has been working on a number of issues that really 
are perplexing and, Mr. Rademaker, you kind of alluded to it 
just a few minutes ago.
    You know, five executive orders, over 10 codified laws that 
required Congress to act to remove the sanctions in some way, 
form or fashion from Iran.
    And yet here we are today discussing this particular deal 
of a new deal when Iran is violating not only outlined codified 
law on our behalf but, according to your testimony just now, 
U.N. sanctions.
    Is that correct? Are they violating U.N. sanctions by 
having a nuclear program?
    Mr. Rademaker. You know, that is one of the mysteries of 
the Joint Plan of Action because yes, those U.N. mandates 
remain in effect yet you have got this agreement that sort of 
takes a wink at that or gives a wink to that and says----
    Mr. Meadows. So we have----
    Mr. Rademaker [continuing]. We are going to--I mean, in a 
way we have sort of delegitimized the authority of the U.N. 
Security Council by winking at these Iranian violations of U.N. 
mandates.
    Mr. Meadows. So what this administration is saying is that 
it is okay if you violate some of the U.N. sanctions and some 
of the U.N. guidelines that are out there today as long as you 
enter into a new agreement where you promise not to violate 
them. Is that correct?
    Mr. Rademaker. I would say that is correct, yes.
    Mr. Meadows. Well, if that is the case, if they are not 
willing to adhere to existing laws that are in place, existing 
guidelines by both the United States and the U.N., how do we 
expect them, just because 18 months has transpired, to be any 
more, I guess, legitimate, to use your words, with regards to 
compliance? How can we expect a different result based on this 
new agreement?
    Mr. Rademaker. Well, I will give you two answers. The first 
is a flip one--you know, hope springs eternal--but the second 
one is more serious and that is it is the Faustian bargain that 
I referred to in my testimony.
    I think the calculation is we are going to offer the 
Iranians a really sweet deal. They behave for 10 years and we 
are going to incentivize them to behave for 10 years because at 
the end of the 10 years they get everything they want.
    Mr. Meadows. So----
    Mr. Rademaker. And so, you know, maybe they cheat during 
the 10 years but then they get--then they lose the really sweet 
deal.
    Mr. Meadows. So we are legitimizing their nuclear program 
today in exchange for them to have a bona fide nuclear program 
10 years from now?
    Mr. Rademaker. That is fundamentally the bargain that is 
being offered to them.
    Mr. Meadows. Well, if it takes Congress to act to remove 
these particular codified laws, if it takes the U.N. to act to 
remove U.N. sanctions, how in the world does a snap back really 
happen?
    I mean, this new snap back is part of the framework. I have 
never known sanctions to ever snap back and ever be effective 
quickly.
    Mr. Rademaker. Well, you know----
    Mr. Meadows. Can you show--can you point to a point in 
history where that has ever had immediate impact on a snap back 
kind of situation where a sanction had an immediate effect and 
changed it overnight?
    Mr. Rademaker. I would have to think about that but let me 
just say, you know, for the domestic side of it, you know, 
where it is a matter of U.S. law, you are going to be writing 
the law and, you know, you can write a law that will snap back 
U.S. sanctions.
    You can write that. Now, it may require the President to 
implement that law in good faith but--and that may or may not 
be an obstacle. But, you know, you can----
    Mr. Meadows. So what about the U.N.?
    Mr. Rademaker [continuing]. Construct a domestic snap back. 
Yes, the U.N. much, much harder and I would say, as I said 
earlier, I would be astonished----
    Mr. Meadows. Harder or impossible? Well, close to 
impossible?
    Mr. Albright. You should wait and see, though, because 
they--there is another challenge. It has to be automatic and so 
you can't----
    Mr. Rademaker. Well, I----
    Mr. Meadows. And therein is my thing. In the framework 
analysis that we have, gentlemen, it talks about mitigation and 
how we mitigate differences and if we have a 2-month window or 
even if it grows to 1 year, as the talking points have, can you 
mitigate something longer enough to allow Iran to get to a 
nuclear bomb before we could actually take action, according to 
our own framework?
    Mr. Albright. Yes, but there are two issues. One is can you 
create a snap back mechanism and I am told that they are 
seriously looking at ways to do that. It is not resolved and I 
couldn't give you an answer in any case because----
    Mr. Meadows. Can you point to anywhere this has----
    Mr. Albright. Well, I think this is on precedent.
    Mr. Meadows. I am not aware of any.
    Mr. Albright. But the other part is can it work. I mean, in 
that I think we should be clear on. I think that using 
sanctions to stop an Iranian breakout is probably not possible.
    I mean, it just takes too long for the sanctions to really 
have an impact and so more is going to be needed and I think 
that has to be thought through by the U.S. Government and by 
Congress of what else is going to have to be put into, in a 
sense, the implementing U.S. legislation that would trigger 
reactions if Iran isn't in compliance.
    Mr. Meadows. So let me--let me clarify. A snap back will 
not stop Iran from getting a nuclear bomb. Is that----
    Mr. Albright. I don't think so, not even if you had a year 
breakout time. It is hard to see how that alone would do it. 
Just, again, that if it is--if you create, you know, go much, 
much further on the impact of sanctions.
    But I think in the end you are pushed to the point of are 
you going to respond militarily. I mean, I think that is a 
horrible place to be but I think that is ultimately where you 
end up.
    But if you want to stop them before they get enough 
material for a bomb you probably have to have some 
preauthorization or something in law that would--that would 
authorize the U.S. to respond.
    And this would also help address what Mr. Rademaker has 
brought up about the legitimization of the program and so I 
think it is going to require some real thought about how the 
U.S.--how it implements this deal.
    Mr. Meadows. I am out of time. I will yield back. Thank 
you, Mr. Chairman.
    Chairman Royce. Thank you, and let me just express our 
appreciation for our witnesses for being here today and for the 
time they have given us and also on this issue of inspections, 
this verification component and the other parts of this program 
that we have talked about today.
    An understanding of that is going to be critical to 
Congress as it judges any final agreement. So we are going to 
have a series of additional hearings on different aspects on 
the agreement. But it is clear when it comes to the issue of 
verification that the administration has a long way to go.
    So this hearing for now is adjourned. Thank you.
    [Whereupon, at 12:52 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable Darrell E. Issa, a 
        Representative in Congress from the State of California
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 Material submitted for the record by the Honorable Darrell E. Issa, a 
        Representative in Congress from the State of California

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
